Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    CONFLICT-OF-INTEREST
   WAIVERS GRANTED TO HHS
      EMPLOYEES IN 2009




                    Daniel R. Levinson
                     Inspector General

                      August 2011
                     OEI-04-10-00010
   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                  1. To assess the extent to which conflict-of-interest waivers granted to
                     Department of Health and Human Services (HHS) employees were
                     documented as recommended in provisions of selected
                     Governmentwide Federal ethics regulations and the instructions of
                     the Secretary of Health and Human Services (Secretary) to describe:
                         • the employee’s specific financial interest that poses the conflict of
                           interest;
                         • the particular matter(s) in which the employee is permitted to
                           participate; and
                         • the particular matter(s), if any, in which the employee is
                           prohibited from participating.
                  2. To determine whether HHS employees signed and dated their
                     conflict-of-interest waivers.


                  BACKGROUND
                  HHS employees, including special Government employees (SGE)
                  serving as subject-matter experts on Federal advisory committees
                  (committees), play an influential role in the Federal Government’s
                  public health policies. HHS employees may have conflicts of interest
                  that prohibit them from participating in certain official Government
                  matters affecting their personal financial interests. These interests
                  may include outside employment, grants, and stock ownership.
                  The Office of Government Ethics (OGE) promulgates Governmentwide
                  Federal ethics regulations for all Executive Branch employees and
                  oversees all Federal agencies’ ethics programs. With oversight and
                  guidance from the HHS Office of the General Counsel (OGC), an HHS
                  Operating Division (OPDIV) or Staff Division (STAFFDIV) may grant
                  conflict-of-interest waivers to its employees if the OPDIV or STAFFDIV
                  determines that the conflict is not likely to affect the integrity of the
                  employees’ services to the Government. For SGEs on committees, in
                  particular, an OPDIV or STAFFDIV may grant a waiver if the need for
                  an SGE’s services outweighs the potential for a conflict of interest.
                  Waivers permit employees who have conflicts of interest to act in an
                  official Government capacity on matters in which they would otherwise
                  be prohibited from participating. In 2009, HHS granted 342 waivers;
                  334 waivers were granted to SGEs on committees.

OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   i
E   X   E C   U T   I     V      E           S      U M            M      A      R Y


                    According to Governmentwide Federal ethics regulations and the
                    Secretary’s instructions, all waivers should describe, among other
                    things, employees’ specific conflicts of interest and the particular
                    matters in which employees are permitted to participate. Further, if
                    the OPDIV or STAFFDIV determines that employees are not permitted
                    to fully participate in particular matters related to their conflicts of
                    interest, the employees’ waivers are considered “limited.” Limited
                    waivers should describe the particular matters related to the conflicts of
                    interest in which the employees are prohibited from participating,
                    regardless of the other matters being waived. In addition, although it is
                    not a Federal requirement for employees to sign and date their waivers,
                    OGC’s sample waivers have a signature line. HHS OPDIVs and
                    STAFFDIVs can document when employees receive and acknowledge
                    waivers by having employees sign and date them. Signatures and dates
                    show that employees received and acknowledged their waivers and may
                    be held accountable for complying with them.
                    We reviewed a stratified, random sample of 50 conflict-of-interest
                    waivers granted to HHS employees in 2009, including 42 waivers for
                    SGEs on committees. We determined whether the waivers in our
                    sample were documented as recommended in three provisions of
                    selected Governmentwide Federal ethics regulations and the Secretary’s
                    instructions. We also determined whether employees signed and dated
                    the waivers in our sample. We do not generalize our findings to all
                    HHS waivers granted in 2009.


                    FINDINGS
                    Fifty-six percent of the 50 HHS conflict-of-interest waivers in our
                    review were not documented as recommended in provisions of
                    selected Governmentwide Federal ethics regulations and the
                    Secretary’s instructions. Fourteen percent of the sampled waivers did
                    not describe employees’ specific interests that posed conflicts.
                    Forty-six percent did not describe the particular matters in which
                    employees were permitted to participate. Twenty-eight percent were
                    limited waivers that did not describe the particular matters in which
                    the employees were prohibited from participating. Twenty-four percent
                    were not documented as recommended in at least two of the three
                    selected provisions and the Secretary’s instructions, and 8 percent were
                    not documented as recommended in any of these provisions or
                    instructions. The waivers that were not documented as recommended
                    were granted to employees at five of the nine OPDIVs and STAFFDIVs

OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   ii
E   X   E C       U T    I    V      E            S     U M            M       A         R Y


                        in our review. All but one of these waivers were granted to SGEs on
                        committees.
                        Although not required, 18 percent of the 50 HHS conflict-of-interest
                        waivers in our review included employees’ signatures and dates.
                        While it is not a Federal requirement for waivers to be signed and
                        dated, 18 percent of the 50 waivers in our sample included employees’
                        signatures and dates. These signed and dated waivers had been
                        granted to employees in six of the nine OPDIVs and STAFFDIVs in our
                        review. Most of the waivers in our sample—82 percent—did not include
                        employees’ signatures and/or dates. All but two of the waivers that
                        were not signed and/or dated were for SGEs on committees.
                        Twenty-four of the waivers that were not signed and/or dated were also
                        not documented as recommended in at least 1 of the 3 provisions of
                        selected Governmentwide Federal ethics regulations and the Secretary’s
                        instructions, and 14 of these 24 were limited waivers. These 14 limited
                        waivers represent the greatest vulnerability. The employees receiving
                        them may not know they have waivers or understand the limitations
                        imposed on their participation in official duties. If these employees are
                        not aware of their waivers or do not clearly understand them, they may
                        violate the criminal conflict-of-interest statute by participating in
                        prohibited matters.


                        RECOMMENDATIONS
                        According to OGE, evaluating whether to grant a waiver is one of the
                        more significant duties that agency ethics officials perform. If
                        conflict-of-interest waivers are not clearly documented to show that
                        employees understand their conflicts of interest and the matters, if any,
                        in which they are prohibited from participating, employees may
                        inadvertently violate the criminal conflict-of-interest statute. In
                        addition, if waivers do not clearly describe the particular matters in
                        which employees are permitted to participate, employees may
                        incorrectly refrain from providing their expertise when it would benefit
                        HHS’s programs. Further, if waivers are not documented so that the
                        public understands the employees’ conflicts of interest and their effect
                        on the employees’ official Government duties, the public may question
                        the integrity of the employees’ services to the Government.
                        Therefore, we recommend that the HHS OGC:




OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   iii
E    X   E C     U T   I       V      E           S      U M            M      A      R Y


                           Require OPDIVs and STAFFDIVs to document conflict-of-interest
                           waivers as recommended in Governmentwide Federal ethics
                           regulations and the Secretary’s instructions.
                           Develop additional guidance and training to assist OPDIVs and
                           STAFFDIVs in documenting conflict-of-interest waivers as
                           recommended in Governmentwide Federal ethics regulations and
                           the Secretary’s instructions.
                           Take action to revise the conflict-of-interest waivers in our review
                           that were not documented as recommended in Governmentwide
                           Federal ethics regulations and the Secretary’s instructions, if the
                           waivers are still in effect.
                           Expand the review of conflict-of-interest waivers for SGEs on
                           committees.
                           Require all employees to sign and date their conflict-of-interest
                           waivers or otherwise document that they received and
                           acknowledged them.


                           AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                           RESPONSE
                           OGC and OGE provided written comments on a draft of this report. In
                           response to OGC’s and OGE’s comments, we conducted a second review
                           of many of the waivers in our sample. We continued to find that many
                           waivers were not documented as recommended in the selected
                           regulatory provisions and the Secretary’s instructions, and we updated
                           our findings accordingly.
                           We made other technical and clarifying changes to the report based on
                           OGC’s and OGE’s comments. For the full text of OGC’s and OGE’s
                           comments, see Appendix H. Because OGC included OGE’s comments as
                           an attachment to its comments, we do not provide OGE’s comments
                           separately.




    OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   iv
   T A B L E           O F           C O N T E N T S


         EXECUTIVE SUMMARY .....................................i

         INTRODUCTION ............................................ 1

         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    Fifty-six percent of the 50 HHS conflict-of-interest waivers in our
                    review were not documented as recommended in provisions of
                    selected Governmentwide Federal ethics regulations and the
                    Secretary’s instructions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    Although not required, 18 percent of the 50 HHS
                    conflict-of-interest waivers in our review included employees’
                    signatures and dates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
                    A: Number of Waivers by Department of Health and Human
                    Services Operating Division or Staff Division and Type of
                    Employee, From 2007 to 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

                    B: 5 CFR Pt. 2640, Subpart C—Individual Waivers . . . . . . . . . . . 35

                    C: The Secretary of Health and Human Services’ January 2009
                    Instructions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                    D: Number of Waivers Granted by the Department of Health
                    and Human Services in 2009 to Special Government Employees
                    on Federal Advisory Committees at the National Institutes of
                    Health, by Institute or Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

                    E: Number and Percentage of Waivers From 2009 in Our
                    Review Not Documented as Recommended in Provisions of
                    Selected Governmentwide Federal Ethics Regulations and the
                    Instructions of the Secretary of Health and Human Services, for
                    Special Government Employees and All Other HHS Employees . 44

                    F: Number and Percentage of Waivers From 2009 in Our
                    Review Not Documented as Recommended in One, Two, or Three
                    Provisions of Selected Governmentwide Federal Ethics
                    Regulations and the Instructions of the Secretary of Health and
                    Human Services, for Limited and Nonlimited Waivers . . . . . . . . 45

                    G: Number and Percentage of Waivers From 2009 in Our
                    Review That Did Not Include Employees’ Signatures and/or Dates,
                    for Special Government Employees and All Other Department of
                    Health and Human Services Employees . . . . . . . . . . . . . . . . . . . . 46

                    H: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To assess the extent to which conflict-of-interest waivers granted to
                     Department of Health and Human Services (HHS) employees were
                     documented as recommended in provisions of selected
                     Governmentwide Federal ethics regulations and the instructions of
                     the HHS Secretary (Secretary) to describe:
                         • the employee’s specific financial interest that poses the conflict of
                           interest;
                         • the particular matter(s) in which the employee is permitted to
                           participate; and
                         • the particular matter(s), if any, in which the employee is
                           prohibited from participating.
                  2. To determine whether HHS employees signed and dated their
                     conflict-of-interest waivers.


                  BACKGROUND
                  Federal employees play an influential role in the Federal Government’s
                  public health policies. Federal agencies must ensure that their
                  employees’ conflicts of interest do not compromise the integrity and
                  credibility of Federal programs. 1 The Office of Government Ethics
                  (OGE) promulgates Governmentwide Federal ethics regulations for all
                  Executive Branch employees and oversees all Federal agencies’ ethics
                  programs.2 Further, in January 2009, the Secretary issued additional
                  instructions on granting waivers and the contents of waivers.3 The
                  HHS Designated Agency Ethics Official and other staff in the HHS
                  Office of the General Counsel (OGC) Ethics Division provide guidance
                  and oversight of ethics programs in HHS Operating Divisions (OPDIVs)
                  and Staff Divisions (STAFFDIVs). 4



                  1 We use the term “conflict of interest” to refer to financial interests covered by the criminal
                  conflict-of-interest statute (18 U.S.C. § 208). This includes both actual and potential
                  financial conflicts of interest.
                  2 Ethics in Government Act, 5 U.S.C. app. IV §§ 401 and 402, 5 CFR pt. 2600.
                  3 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating and

                  Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                  18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009.
                  4 OGC Ethics Division, Deputy Ethics Counselor HHS Ethics Program Statement of
                  Functions, Responsibilities, and Authority, revised August 15, 2007.



OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   1
I   N T    R O     D   U   C T           I    O       N



                           HHS employees include special Government employees (SGEs) serving
                           on Federal advisory committees (committees), regular Government
                           employees, SGEs not serving on committees, and political appointees. 5, 6
                           Hereinafter, we will refer to HHS regular Government employees, SGEs
                           not serving on committees, and political appointees as “all other HHS
                           employees.”
                           SGEs serving on committees are subject-matter experts who provide
                           “expert advice, ideas, and diverse opinions” to the Federal Government.
                           SGEs are typically actively involved in work outside the Government in
                           the same areas as their official Government work.7 The category of “all
                           other HHS employees” includes agency heads and program directors
                           who typically work on broad policy matters related to their agencies or
                           programs.8
                           Executive Branch employees, including HHS employees, must not
                           participate personally and substantially in an official capacity in any
                           particular matters that would have a direct and predictable effect on




                           5 Federal Advisory Committee Act, 5 U.S.C. app. II §§ 2(a) and 3(2)(c). OGE Memorandum

                           to Designated Agency Ethics Officials, Federal Advisory Committee Appointments.
                           DO-05-012, August 18, 2005. Accessed at
                           http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2005/do05012.pdf on July 10,
                           2009.
                           6 HHS employees are appointed in the civil service, act in an official capacity, or are
                           supervised by a Federal official. The President, the Secretary, and other HHS officials may
                           appoint HHS employees to their positions.
                           7 OGE, Conflict of Interest and the Special Government Employee: A Summary of Ethical
                           Requirements Applicable to SGEs. Attachment to the OGE Memorandum to Designated
                           Agency Ethics Officials, DO-00-003, February 15, 2000. Accessed at
                           http://www.usoge.gov/laws_regs/other_ethics_guidance/othr_gdnc/og_sge_coi_00.pdf on
                           July 10, 2008.
                           8 Although there are many other types of Federal employees, their official duties are usually

                           narrower in scope than those of agency heads or program directors. Therefore, other
                           employees would not likely receive a waiver for their conflicts of interest and would,
                           instead, be required to withdraw (i.e., recuse themselves) from the matter(s) related to their
                           conflicts. The official duties of agency heads and program directors are usually broader in
                           scope, making recusal more difficult. When determining how to resolve an employee’s
                           conflict of interest, ethics officials should first consider whether recusal would resolve the
                           conflict if an “employee’s duties can easily be adjusted to avoid a waiver.” OGE
                           Memorandum to Designated Agency Ethics Officials, Waivers Under 18 U.S.C. § 208.
                           DO-07-006, February 23, 2007, p. 4. Accessed at
                           http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2007/do07006.pdf on
                           September 20, 2010.



     OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   2
I     N T     R O     D   U      C T           I    O       N



                          their financial interests.9, 10 These interests may include outside
                          employment, grants, assets, board membership, or ownership of publicly
                          traded stock in excess of minimal values.11, 12 The employee must
                          withdraw (i.e., recuse himself or herself) from matters relating to the
                          interest, unless he or she receives a conflict-of-interest waiver. 13, 14
                          An appropriate OPDIV or STAFFDIV official (i.e., the granting official)
                          responsible for an HHS employee’s appointment may grant a waiver to
                          permit the employee to act in an official Government capacity in
                          particular matters in which he or she would otherwise be prohibited
                          from participating. According to OGE, evaluating whether to grant a
                          waiver is:
                                     one of the more significant duties that [OPDIV or
                                     STAFFDIV] ethics officials perform to ensure public
                                     confidence in the Government’s operations and programs.
                                     Both the individual employee’s interests and those of the




                          9 18 U.S.C. § 208; 5 CFR § 2635.402. Executive Branch employees’ interests refer to both

                          the employees’ own interests and those attributed to them on behalf of another person or
                          entity (e.g., spouse, minor child, employer). 5 CFR 2635.402(b)(2).
                          10 We use the term “particular matters” to refer to official duties that involve the interests
                          of a specific entity (e.g., a company) or a class of entities (e.g., a sector of similar companies).
                          5 CFR § 2640.103(a)(1).
                          11 SGEs on committees have a regulatory exemption (i.e., do not need a waiver) to

                          participate in committee work regarding particular matters of general applicability that
                          would affect their employer to the same extent as similarly situated entities (e.g., the
                          employer’s competitors). However, SGEs on committees must not participate in committee
                          work that would have a special or distinct effect on the financial interests of their
                          employers. 5 CFR § 2640.203(g).
                          12 5 CFR §§ 2640.202(a) and (c) provide de minimis exemptions for values of publicly traded

                          stock owned by employees who participate in particular matters involving specific parties
                          and particular matters of general applicability, respectively. Specifically, an employee who
                          holds publicly traded stock in excess of $15,000 in companies affected by a specific party
                          matter is prohibited from officially participating in that matter. Further, if an employee
                          holds stock exceeding $25,000 in a company or an aggregate of stock exceeding $50,000 in a
                          sector (i.e., a group of companies in a related industry), the employee is prohibited from
                          participating in official duties that could affect all companies within that sector.
                          13 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating

                          and Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                          18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009.
                          14 18 U.S.C. § 208. The term “waiver” refers to waivers issued under 18 U.S.C. §§ 208(b)(1)
                          or (b)(3). Waivers issued under 208 (b)(1) may be granted to any Federal employee of the
                          Executive Branch. 5 CFR § 2640.301. Waivers issued under 208(b)(3) may be granted only
                          to SGEs on committees. 5 CFR § 2640.302.



    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   3
I     N T     R O     D   U      C T           I    O       N



                                     Government are best served when this process is carried
                                     out in a careful and consistent manner. 15
                          OPDIVs and STAFFDIVs should document waivers in a manner that
                          allows all interested parties (e.g., the HHS employees receiving the
                          waivers, their supervisors, the Designated Federal Official assigned to
                          the SGE’s committee, the general public) to understand the specific
                          conflicts of interest and their effect on employees’ official Government
                          duties.16, 17 In addition, while it is not a Federal requirement that
                          waivers be signed and dated by employees, waivers can be documented
                          with the employees’ signatures and dates to indicate when the
                          employees received and acknowledged the waivers. If employees do not
                          comply with their waivers, they may be in violation of the criminal
                          conflict-of-interest statute and can be prosecuted by the Federal
                          Government. In HHS, alleged violations of criminal
                          conflict-of-interest statutes must be reported to the Office of Inspector
                          General (OIG). 18
                          If employees do not sign and date their waivers, the Government may
                          not be able to hold them accountable for complying with their




                          15 OGE Memorandum to Designated Agency Ethics Officials,     Guidance on Waivers Under
                          18 U.S.C. § 208(b), Authorizations Under 5 C.F.R. § 2635.502(d), and Waivers of
                          Requirements Under Agency Supplemental Regulations. DO-10-005, April 22, 2010, p. 5.
                          Accessed at http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2010/do10005.pdf on
                          September 23, 2010.
                          16 Waivers are publicly available upon request. 5 CFR § 2640.304(a). Further, the White

                          House has urged Federal agencies to make all waivers granted to scientific committee
                          members publicly available. Office of Science and Technology Policy Memorandum for the
                          Heads of Executive Departments and Agencies, Scientific Integrity. December 17, 2010,
                          p. 3. HHS may withhold certain information (e.g., exact number and value of stock,
                          company name) before making a waiver available to the public. 18 U.S.C. § 208(d); 5 CFR
                          § 2640.304(b).
                          17 The Designated Federal Official is assigned to each committee to call, attend, and

                          adjourn committee meetings; ensure efficient operations; and maintain publicly available
                          committee records; among other responsibilities. Federal Advisory Committee Act, 5 U.S.C.
                          app. II § 10(e). General Services Administration, The Federal Advisory Committee Act
                          (FACA) Brochure. Accessed at http://www.gsa.gov/portal/content/101010 on November 18,
                          2010.
                          18 HHS, General Administration Manual, ch. 5-10, “Responsibility and Procedures for

                          Reporting Misconduct and Criminal Offenses,” December 26, 2006.



    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   4
I    N T     R O      D   U     C T           I    O      N



                          waivers. 19 For example, as described in a previous report, OIG found
                          that in 2007, seven SGEs on committees at the Centers for Disease
                          Control and Prevention (CDC) participated in particular matters when
                          their waivers prohibited such participation. 20 OIG reviewed
                          information regarding these seven SGEs and determined that, largely
                          as a result of CDC’s systemic lack of oversight of the ethics program for
                          SGEs identified in the OIG report, the actions of the seven SGEs did not
                          rise to the level of criminal violations of the conflict-of-interest statute.21
                          Among other things, CDC’s lack of oversight included failure to obtain
                          SGEs’ signatures on some 2007 waivers, in violation of CDC policy.
                          If OPDIVs and STAFFDIVs do not clearly document waivers to show
                          that employees understand their conflicts of interest and the matters, if
                          any, in which they are prohibited from participating, employees may
                          inadvertently violate the criminal conflict-of-interest statute. In
                          addition, if waivers do not clearly describe the particular matters in
                          which employees are permitted to participate, employees may
                          incorrectly refrain from providing their expertise when it could benefit
                          HHS’s programs. Further, if waivers are not documented so that the
                          public understands employees’ specific conflicts of interest and their



                          19 Some waivers (i.e., limited waivers) contain recusal obligations requiring employees to

                          withdraw from matters related to their conflicts. Although OPDIVs or STAFFDIVs grant
                          waivers to employees, the ultimate responsibility for abiding by the recusal obligations in
                          the waivers rests with the employees. OGE Memorandum to Designated Agency Ethics
                          Officials, Effective Screening Arrangements for Recusal Obligations. DO-04-012,
                          June 1, 2004. Accessed at
                          http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2004/do04012.html on
                          September 28, 2010. In cases in which a waiver with a recusal obligation is granted but the
                          employee never signs the waiver, and the employee violates the criminal conflict-of-interest
                          statute by participating in matters requiring recusal, it may be difficult to prove that the
                          employee ever saw the waiver or knew that the waiver contained the recusal obligation.
                          The employee could argue that he or she thought a waiver had been granted but was
                          unaware of the recusal required by the waiver. In such cases, it may be difficult, if not
                          impossible, to hold the employee accountable for the ethics violation.
                          20 OIG,
                                CDC’s Ethics Program for Special Government Employees on Federal Advisory
                          Committees, OEI-04-07-00260, December 2009. Accessed at
                          http://oig.hhs.gov/oei/reports/oei-04-07-00260.pdf on July 13, 2010.
                          21 After reviewing the matters surrounding these seven SGEs, the OGC Ethics Division, in
                          consultation with OGE, determined that CDC issued the waivers based on an incorrect
                          analysis of 18 U.S.C. § 208. That is, OGC and OGE determined that the conflicts of interest
                          addressed by the waivers were not conflicts under 18 U.S.C. § 208. According to OGC, while
                          the SGEs may have violated the terms of their waivers, they did not violate 18 U.S.C. § 208
                          because they did not participate in particular matters related to a conflict of interest
                          covered by 18 U.S.C. § 208.



    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   5
I    N T     R O      D   U    C T           I     O      N



                          effect on the employees’ official Government duties, the public may
                          question the integrity of the employees’ services to the Government.
                          Additionally, waivers that do not contain employees’ signatures and
                          dates may raise questions about whether the HHS OPDIVs or
                          STAFFDIVs actually presented the waivers to the employees and
                          whether the employees had a chance to review and understand them.
                          Thus, if waivers are not clearly documented and/or there is no evidence
                          that employees received and acknowledged their waivers (e.g., via
                          signatures and dates on waivers or other documentation), OIG has
                          difficulty investigating reports of alleged violations and holding
                          employees accountable for complying with the criminal
                          conflict-of-interest statute.
                          HHS Ethics Programs
                          With oversight and guidance from the HHS OGC Ethics Division, each
                          HHS OPDIV and STAFFDIV administers an ethics program for its
                          employees. When administering these programs, OPDIV and
                          STAFFDIV ethics officials must take into account the requirements
                          placed on HHS employees pursuant to the criminal conflict-of-interest
                          statute, 18 U.S.C. § 208.22 In addition, ethics programs should be
                          administered in accordance with Governmentwide Federal ethics
                          regulations and the Secretary’s January 2009 instructions.23
                          HHS OPDIV and STAFFDIV ethics programs rely on HHS employees’
                          disclosing their personal financial interests. HHS employees who serve
                          in certain positions must file financial disclosure reports either publicly
                          or confidentially.24 In addition, OPDIVs and STAFFDIVs may collect




                          22 5 CFR § 2638, OGE and Executive Agency Ethics Program Responsibilities.
                          23 Ibid. 5 CFR §§ 2640.301 and 302. HHS Secretary, Memorandum to Deputy Secretary

                          and Chiefs of Staff, Heads of Operating and Staff Divisions, Delegation of Authority to
                          Grant Conflict of Interest Waivers Under 18 U.S.C. §§ 203(d), 205(e), and 208(b).
                          January 16, 2009.
                          24 Financial disclosure filing requirements are set forth in 5 CFR § 2634 Subpart B (for

                          public filers) and 5 CFR § 2634 Subpart I (for confidential filers). Public filers disclose
                          financial interests on Standard Form 278; confidential filers disclose financial interests on
                          OGE Form 450. Ethics in Government Act, 5 U.S.C. app. §§ 101 and 107. Alternate
                          procedures for filing financial disclosures are allowed under 5 CFR § 2634.905. According to
                          OGC, the Food and Drug Administration (FDA) and the National Institutes of Health (NIH)
                          use alternate filing procedures for SGEs. Most committees at FDA use another form
                          instead of OGE Form 450. In addition, SGEs at NIH annually file updates to their OGE
                          Form 450 rather than filing a complete OGE Form 450 each year.



    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   6
I     N T     R O     D   U      C T           I    O       N



                          other documents, such as employees’ curricula vitae or résumés, to
                          supplement information in the financial disclosure reports.
                          Once employees disclose their interests, ethics officials can assist them
                          in avoiding conflicts between their official Government duties and their
                          personal financial interests. To do this, ethics officials review an
                          employee’s financial disclosure file, which includes financial disclosure
                          forms and other documents (e.g., the employee’s curriculum vitae), to
                          determine whether the employee has any conflicts of interest. 25 The
                          granting official in the OPDIV or STAFFDIV then determines case by
                          case whether to grant a waiver.26 Unless an employee who has a
                          conflict of interest receives a waiver, he or she is prohibited from
                          participating in certain official matters affecting the interest.
                          HHS OPDIV and STAFFDIV ethics officials may consult with the HHS
                          OGC Ethics Division and other appropriate parties (e.g., employees,
                          employees’ supervisors, and the Designated Federal Official assigned to
                          the SGE’s committee) to determine whether waivers may be needed and
                          for assistance documenting them.27 In accordance with the Secretary’s
                          instructions, the OGC Ethics Division is required to review SGEs’
                          waivers “where practicable” prior to an OPDIV or STAFFDIV granting
                          the waivers. 28 Once an SGE’s waiver has been finalized, a copy must be
                          provided to the OGC Ethics Division. 29 The OGC Ethics Division is also
                          required to review all waivers for all other HHS employees. 30
                          Periodically, the OGC Ethics Division conducts program reviews,
                          including reviews of waivers, to ensure that selected HHS OPDIVs’ and
                          STAFFDIVs’ ethics programs are complying with Federal ethics
                          requirements. 31


                          25 We use the term “ethics officials” to refer to HHS staff, including the Deputy Ethics
                          Counselor, the Ethics Coordinator, and other staff who provide ethics guidance and support.
                          26 5 CFR §§ 2640.302(a) and 2640.301(a).
                          27 OGC Ethics Division, Deputy Ethics Counselor    HHS Ethics Program Statement of
                          Functions, Responsibilities, and Authority, revised August 15, 2007.
                          28 The HHS Designated Agency Ethics Official (or another appropriate ethics official) must
                          review 208(b)(3) waivers “where practicable.” Secretary, Memorandum to Deputy Secretary
                          and Chiefs of Staff, Heads of Operating and Staff Divisions, Delegation of Authority to
                          Grant Conflict of Interest Waivers Under 18 U.S.C. §§ 203(d), 205(e), and 208(b).
                          January 16, 2009, p. 2.
                          29 Ibid.
                          30 Specifically, the Designated Agency Ethics Official within the Ethics Division must

                          review all waivers for all other HHS employees.
                          31 OGC Ethics Division, Program Review Section,
                                                                        Guidelines for Conducting Ethics
                          Program Reviews at the Department of Health and Human Services. February 2010.



    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   7
I     N T     R O     D   U      C T           I    O       N



                          HHS ethics officials are also required to consult with OGE “when
                          practicable” prior to granting a waiver. 32 An April 2010 OGE
                          memorandum notes that “where practicable” is a “high standard
                          requiring agencies to consult [with OGE] in all but the most exigent
                          circumstances. Waiving a criminal conflict of interest statute is not to
                          be taken lightly.” 33
                          In 2009, OPDIVs and STAFFDIVs granted 342 waivers to HHS
                          employees, representing a decrease of 24 percent since 2007.
                          Ninety-eight percent (334 of 342) of the waivers HHS granted in 2009
                          were to SGEs on committees. 34 Appendix A provides the number of
                          waivers by OPDIV or STAFFDIV and type of employee (i.e., SGE or
                          other Federal employee) from 2007 to 2009.
                          Federal Ethics Requirements and Recommendations for HHS
                          Conflict-of-Interest Waivers
                          There are many Federal ethics regulations that pertain to
                          conflict-of-interest waivers. 35 For example, for a waiver to be legally
                          effective, it must be in writing, signed and dated by the appropriate
                          granting official, and granted under the appropriate statutory
                          authority.36 That is, an OPDIV or STAFFDIV may grant a waiver to an
                          SGE on a committee if, after reviewing the SGE’s financial disclosures,
                          the appropriate granting official certifies that the need for the
                          employee’s services outweighs the potential for a conflict of interest
                          created by the financial interest involved, as required by statute and
                          regulation. 37 Similarly, an OPDIV or STAFFDIV may grant a waiver
                          that allows a Federal employee (other than an SGE on a committee) to
                          work on a particular matter if the granting official determines that the
                          financial interest is not so substantial as to be deemed likely to affect
                          the integrity of the employee’s services to the Government. 38



                          32 5 CFR 2640.303.
                          33 OGE Memorandum to Designated Agency Ethics Officials,     Guidance on Waivers Under
                          18 U.S.C. § 208(b), Authorizations Under 5 C.F.R. § 2635.502(d), and Waivers of
                          Requirements Under Agency Supplemental Regulations. DO-10-005, April 22, 2010, p. 5.
                          Accessed at http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2010/do10005.pdf on
                          September 23, 2010.
                          34 OIG review of data provided by OGC, 2010.
                          35 5 CFR pt. 2640.
                          36 Ibid.
                          37 18 U.S.C. § 208(b)(3); 5 CFR § 2640.302(a)(3).
                          38 18 U.S.C. § 208(b)(1); 5 CFR § 2640.301(a)(4).




    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   8
I   N T   R O     D     U   C T        I    O      N



                            Further, waivers both for SGEs on committees and all other HHS
                            employees should describe:
                               1. the employee’s specific financial interest that poses the conflict of
                                  interest; 39, 40
                               2. the particular matter(s) in which the employee is permitted to
                                  participate; 41, 42 and
                               3. the particular matter(s), if any, in which the employee is
                                  prohibited from participating. 43, 44
                            Appendix B contains the provisions of Governmentwide Federal ethics
                            regulations regarding the issuance of individual waivers for SGEs on
                            committees and all other HHS employees. Hereinafter we will refer to
                            the provisions of selected Governmentwide Federal ethics regulations
                            included in our review as “selected regulatory provisions.”
                            The OGE-promulgated regulations state that the disqualifying financial
                            interest, the particular matter or matters to which the waiver applies,
                            and the employee’s role in such matters do not need to be described with
                            any particular degree of specificity to be legally sufficient. 45 As such,
                            the regulations allow agency flexibility to respond to a wide variety of


                            39 For SGEs, “[w]aivers issued pursuant to 18 U.S.C. 208(b)(3) should comply with the
                            following requirements . . . [t]he facts upon which the certification is based should be fully
                            described in the waiver, including the nature of the financial interest. . .” 5 CFR
                            § 2640.302(a)(4).
                            40 For all other HHS employees, “waivers issued pursuant to 18 U.S.C. 208(b)(1) should
                            comply with the following requirements . . . [t]he waiver should describe the disqualifying
                            financial interest . . .” 5 CFR § 2640.301(a)(3). Further, “the information contained in the
                            waiver . . . should provide a clear understanding of the nature and identity of the
                            disqualifying financial interest, the matters to which the waiver will apply, and the
                            employee’s role in such matters.” 5 CFR § 2640.301(a), Note to paragraph (a).
                            41 For SGEs, “[w]aivers issued pursuant to 18 U.S.C. 208(b)(3) should comply with the

                            following requirements . . . [t]he facts upon which the certification is based should be fully
                            described in the waiver, including . . . the particular matter or matters to which the waiver
                            applies. . .” 5 CFR § 2640.302(a)(4).
                            42 For all other HHS employees, “[w]aivers issued pursuant to 18 U.S.C. 208(b)(1) should
                            comply with the following requirements . . . [t]he waiver should describe. . .the particular
                            matter or matters to which it applies.” 5 CFR § 2640.301(a)(3).
                            43 For SGEs, “[w]aivers issued pursuant to 18 U.S.C. 208(b)(3) should comply with the

                            following requirements . . . [t]he waiver should describe any limitations on the individual’s
                            ability to act in the matter or matters.” 5 CFR § 2640.302(a)(5).
                            44 For all other HHS employees, “[w]aivers issued pursuant to 18 U.S.C. 208(b)(1) should

                            comply with the following requirements . . . [t]he waiver should describe. . .any limitations
                            on the employee’s ability to act in such matters.” 5 CFR §2640.301(a)(3).
                            45 5 CFR § 2640.301, Note to paragraph (a).




      OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   9
I   N T   R O    D      U   C T        I    O      N




                             situations. These situations may include cases in which agencies and
                             employees have more or less information available to them concerning
                             the particular matters in which employees might participate, employees’
                             roles in such matters, and the financial impact of such matters. The
                             regulations also state, however, that a waiver should provide a clear
                             understanding of the nature and identity of the employee’s financial
                             interest that poses the conflict, the matters to which the waiver applies,
                             and the employee’s role in such matters. 46 Further, in proposing these
                             regulations in 1995, OGE stated that “agencies should endeavor to
                             formulate waivers with enough specificity that a member of the public
                             would have a clear understanding of the circumstances to which the
                             waiver applies.” 47
                             The Secretary’s January 2009 instructions state that, among other
                             things, waivers “must fully describe the potential conflict [and]
                             document the basis for the waiver.” These instructions also state that
                             waivers “must . . . reflect an individualized assessment of the
                             [employee’s] circumstances.” 48 Appendix C contains the Secretary’s
                             January 2009 instructions.
                             Description of the specific financial interest that poses the conflict of
                             interest. Waivers may apply to present and future interests (e.g., future
                             receipt of grant funds or appointment as a board member), provided the
                             interests are described with sufficient specificity. 49 For SGEs’ waivers,
                             the regulations promulgated by OGE state that “the facts upon which
                             the [waiver] is based should be fully described in the waiver, including
                             the nature of the financial interest.” 50 For all other HHS employees’
                             waivers, the regulations state that “the waiver should describe the
                             disqualifying financial interest” and that “the information contained in
                             the waiver . . . should provide a clear understanding of the nature and
                             identity of the disqualifying financial interest.” 51 Furthermore, the




                             46 Ibid.
                             47 OGE.   Interpretation, Exemptions and Waiver Guidance Concerning 18 U.S.C. 208 (Acts
                             Affecting a Personal Financial Interest) (proposed rule), 60 Fed. Reg. 47222 (Sept. 11, 1995).
                             48 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating

                             and Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                             18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009, p. 2.
                             49 5 CFR §§ 2640.302(a)(7) and 2640.301(a)(6).
                             50 5 CFR § 2640.302(a)(4).
                             51 5 CFR § 2640.301(a), Note to paragraph (a).




      OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   10
 I   N T    R O   D   U      C T           I    O       N


                  Secretary’s instructions state that “the waiver must fully describe the
                  potential conflict . . . .” 52
                  Description of the particular matter(s) in which the employee is permitted to
                  participate. A waiver should describe the particular matter(s) to which it
                  applies.53 That is, the waiver should describe the particular matter(s)
                  related to the conflict(s) of interest that the employee is permitted to
                  undertake as part of his or her official duties. Employees must not
                  participate in the matter(s) until the waiver is granted. 54 If a waiver
                  applies to all particular matters under an employee’s responsibility, the
                  waiver should contain a reasonably detailed description of these
                  responsibilities.55 The Secretary’s instructions state that “[c]ategories
                  of official actions to which a waiver applies must be narrowly drawn to
                  ensure that permission for the employee to act in an otherwise
                  conflicting situation is appropriately limited.” 56 Thus, the waiver
                  should specify the particular matter(s) in which the employee is
                  permitted to participate.
                  Description of the particular matter(s), if any, in which the employee is
                  prohibited from participating. In cases in which the granting official does
                  not permit the employee to fully participate in matters related to the
                  conflict of interest, the official must grant a “limited” waiver. Limited
                  waivers should describe limitations on the employee’s participation in
                  his or her official duties. 57 For example, a limited waiver may permit
                  the employee to participate in official matters related to an existing
                  contract but prohibit the employee from participating in matters related
                  to any future contract negotiations.
                  In HHS, the Secretary has emphasized the importance of any
                  limitations described in waivers by pointing out: “Vigilant internal
                  agency practice must provide for effective screening and monitoring


                  52 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating
                  and Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                  18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009, p. 2.
                  53 5 CFR §§ 2640.302(a)(4) and 2640.301(a)(3).
                  54 5 CFR §§ 2640.301(a)(5) and 2640.302(a)(6).
                  55 OGE Guidance 07 x 4. Memorandum dated February       23, 2007, from Robert I. Cusick,
                  Director, to Designated Agency Ethics Officials Regarding Waivers Under 18 U.S.C. 208 .
                  56 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating

                  and Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                  18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009, p. 2.
                  57 5 CFR §§ 2640.301(a)(3) and 2640.302(a)(5).




OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   11
I   N T   R O    D      U   C T       I    O       N




                             mechanisms when an employee has received a limited waiver from the
                             conflict of interest statutory requirements.” 58
                             Employee Signature and Date on HHS Conflict-of-Interest Waivers
                             OPDIVs or STAFFDIVs must grant waivers prior to employees’ taking
                             any action in matters for which they have conflicts. 59 While it is not a
                             Federal ethics requirement for them to do so, HHS OPDIVs and
                             STAFFDIVs can document when employees receive and acknowledge
                             their waivers by having employees sign and date them. 60 Employees’
                             signatures and dates also document that they are accountable for
                             complying with the waivers. The OGC Ethics Division makes sample
                             waivers for SGEs and all other HHS employees available to OPDIVS
                             and STAFFDIVs on its Intranet site. 61 The sample waiver for SGEs has
                             a signature line for the SGE and an acknowledgment statement.62 The
                             sample waivers for all other HHS employees have signature lines for
                             the employee or the Deputy Ethics Counselor indicating that the




                             58 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating

                             and Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                             18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009, p. 3.
                             59 5 CFR §§ 2640.301(a)(5) and 2640.302(a)(6).
                             60 At least one OPDIV or STAFFDIV has a policy that requires employees to sign waivers.

                             For example, see CDC Policy CDC-GA-2001-05 (formerly CDC-94), Financial Disclosure for
                             Federal Advisory Committee Members Appointed as Special Government Employees,
                             July 5, 2001. Accessed at http://www.cdc.gov/maso/facm/pdfs/policy294.pdf on July 13,
                             2010.
                             61 OGC, “Sample Waiver of Conflict of Interest for Special Government Employees (SGEs)

                             on Federal Advisory Committees [18 U.S.C. 208(b)(3)],” “Sample Waiver of Actual Conflict
                             for Officers or Directors [18 U.S.C. 208(b)(1)],” and “Sample Waiver of Actual Conflict of
                             Interest for Regular Employees [18 U.S.C. 208(b)(1)].”
                             62 The acknowledgment states that “[t]he undersigned confirms, acknowledges, and agrees

                             to the terms of the waiver and will recuse from official participation in any particular
                             matters involving specific parties that arise before the {Advisory Committee name} that will
                             have a direct and predictable effect on his/her own or imputed financial interests.” OGC,
                             “Sample Waiver of Conflict of Interest for Special Government Employees (SGEs) on
                             Federal Advisory Committees [18 U.S.C. 208(b)(3)].”



      OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   12
 I   N T    R O   D   U      C T           I    O       N


                  individual signing the waiver has “confirmed and acknowledged” the
                  waiver.63
                  As an alternative to obtaining employees’ signatures and dates, OPDIVs
                  and STAFFDIVs can document other actions to ensure that employees
                  understand their conflicts of interest and any limitations on their
                  participation in official duties. Such other actions could include
                  emailing employees to notify them about their waivers, receiving emails
                  from employees to confirm that they understand their waivers, and/or
                  documenting that the employees received oral counseling about their
                  waivers.
                  However, regardless of when the employee signs the waiver, it is not
                  considered effective until the OPDIV or STAFFDIV granting official
                  signs and dates it. 64
                  Related Office of Inspector General Work
                  In a 2009 report, OIG cited vulnerabilities in waivers for SGEs on
                  committees at CDC in 2007. Eight percent (18 of 212) of SGEs on CDC’s
                  17 committees had approved waivers on file in 2007. OIG found that
                  none of these 18 waivers was adequately documented. 65


                  METHODOLOGY
                  Scope
                  We reviewed a stratified, random sample of 50 conflict-of-interest
                  waivers that OPDIVs and STAFFDIVs granted in 2009 to determine
                  whether they were documented as recommended in 3 selected
                  regulatory provisions and the Secretary’s instructions. We also
                  determined whether HHS employees signed and dated their waivers.
                  Our review did not include a complete determination of whether the
                  waivers in our sample were legally sufficient or valid, and we do not


                  63 The sample waiver for “officers or directors” has a signature line for the employee; the
                  sample waiver for “regular employees” has a signature line for the employee or the Deputy
                  Ethics Counselor. The HHS Designated Agency Ethics Official has delegated daily
                  responsibility for administering HHS’s ethics programs to Deputy Ethics Counselors in each
                  OPDIV or STAFFDIV. April 7, 2011. Accessed at
                  http://www.hhs.gov/ogc/contact/contacts.html on May 2, 2011.
                  64 5 CFR 2640.301(a).
                  65 OIG, CDC’s Ethics Program for Special Government Employees on Federal Advisory
                  Committees, OEI-04-07-00260, December 2009, p. 20. Accessed at
                  http://oig.hhs.gov/oei/reports/oei-04-07-00260.pdf on July 13, 2010.



OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   13
 I   N T    R O   D   U      C T           I    O       N


                  intend to cast doubt on the legality of any of the waivers we reviewed.
                  Additionally, we did not review whether the waivers in our sample met
                  all Federal ethics requirements or recommendations beyond the three
                  selected regulatory provisions in our review and the Secretary’s
                  instructions. For example, we did not assess whether HHS employees
                  who received waivers in 2009 should have been granted the waivers.
                  We also did not assess whether employees had conflicts of interest that
                  were not addressed by their waivers. Further, we did not determine
                  whether the OPDIV or STAFFDIV ethics official who signed each
                  waiver was the appropriate granting official. We also did not determine
                  whether each waiver was granted under the appropriate statutory
                  authority.
                  Finally, we did not determine whether HHS employees complied with
                  their waivers after the OPDIVs or STAFFDIVs granted them.
                  Sample Selection
                  Three hundred forty-two conflict-of-interest waivers were granted to
                  HHS employees at nine OPDIVs and STAFFDIVs in 2009.66 We
                  selected a stratified, random sample of waivers from each of these
                  OPDIVs and STAFFDIVs. To select this sample, we initially grouped
                  the waivers into 11 strata (see Table 1).
                  We developed one stratum for each of the five OPDIVs and STAFFDIVs
                  that granted waivers to SGEs on committees in 2009. From each of
                  these strata, we selected a simple random sample of waivers (ranging
                  from 2 to 30), in general proportion to the number of waivers in the
                  stratum. For example, we selected the most waivers in our sample from
                  the NIH stratum because it granted the largest number of HHS waivers
                  in 2009. We selected the next-highest number of waivers from the Food
                  and Drug Administration stratum because it granted the second-largest
                  number of HHS waivers in 2009. We selected the fewest waivers from
                  the Agency for Healthcare Research and Quality and the Health
                  Resources and Services Administration strata because they granted the
                  fewest HHS waivers in 2009.




                  66 One OPDIV uses the word “addendum” to describe a conflict-of-interest waiver that is an

                  update to a previous waiver. Because the OPDIV indicated that these “addenda” are
                  separate and distinct from the waivers they “amend,” we treated them as waivers and
                  included them in the total count of waivers in our analysis.



OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   14
 I   N T    R O     D    U      C T           I    O       N


     Table 1: Number of HHS Conflict-of-Interest Waivers Granted in 2009 and Number
     in the Sample, by OPDIV/STAFFDIV and Type of Employee
                                                         Waivers granted Waivers in
     OPDIV/STAFFDIV
                                                                  in 2009     sample
     Waivers for SGEs on Federal advisory committees     334               42
       National Institutes of Health                                  287         30
       Food and Drug Administration                                    23          5
       Centers for Disease Control and Prevention                      12          3
       Agency for Healthcare Research and Quality                       6          2
       Health Resources and Services Administration                     6          2
     Waivers for all other HHS employees                   8                8
       National Institutes of Health                                    3          3
       Assistant Secretary for Planning and Evaluation                  1          1
       Centers for Medicare & Medicaid Services                         1          1
       Food and Drug Administration                                     1          1
       Indian Health Service                                            1          1
       Office of the General Counsel                                    1          1
         Total                                                        342         50
     Source: OIG analysis of OGC data, 2009.



                     In 2009, 84 percent (287 of 342) of HHS’s waivers were for SGEs on
                     committees at NIH in 24 of NIH’s 27 Institutes and Centers.67 From
                     each of the 24 Institutes and Centers, we selected a simple random
                     sample of waivers (ranging from 1 to 3) in general proportion to the
                     number of waivers granted to SGEs on committees at each of these
                     24 Institutes and Centers. Appendix D provides the number of HHS
                     waivers granted in 2009 to SGEs on committees at NIH, by Institute
                     or Center.
                     We also developed one stratum for each of the six OPDIVs and
                     STAFFDIVs that granted waivers to all other HHS employees in 2009.
                     We included all eight of these waivers in our review.
                     Data Collection
                     We reviewed selected regulatory provisions and the Secretary’s
                     instructions regarding HHS’s conflict-of-interest waivers in 2009.
                     We obtained HHS OGC data pertaining to the 342 conflict-of-interest
                     waivers that HHS OPDIVs and STAFFDIVs granted in 2009. We then


                     67 NIH maintains over 150 chartered committees—the largest number of committees in any

                     Executive Branch agency. NIH, Office of Federal Advisory Committee Policy, About Us.
                     Accessed at http://ofacp.od.nih.gov/about/overview.html on July 20, 2010. Therefore, NIH
                     has more SGEs on committees than any other HHS OPDIV or STAFFDIV.



OEI-04-10-00010      CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   15
I   N T   R O     D   U   C T           I     O      N


                          obtained from OGC copies of the 50 waivers in our sample. We also
                          contacted OPDIVs and STAFFDIVs directly to request the waivers and
                          any associated documentation. 68 That is, in addition to the waivers, we
                          reviewed any documentation associated with the employees’ interests
                          referenced in the waivers, as well as any other documentation that the
                          OPDIV or STAFFDIV provided. In addition to the waivers, we
                          requested copies of:
                          1. employees’ financial disclosure forms (i.e., OGE Form 450 or
                             Standard Form 278) that correspond to waivers in our sample; and
                          2. other documents pertaining to the interests reflected in each waiver
                             in our sample (e.g., emails or correspondence, employees’ curricula
                             vitae or résumés).
                          Data Analysis
                          We reviewed the 50 waivers in our sample and associated
                          documentation to determine whether the waivers were documented as
                          recommended in 3 selected regulatory provisions and the Secretary’s
                          instructions and whether they included employees’ signatures and
                          dates.
                          Selected regulatory provisions and the Secretary’s instructions. We
                          determined whether the waivers contained an individualized
                          assessment of the employees’ circumstances and provided a clear
                          understanding of the circumstances to which the waivers applied. We
                          reviewed waivers to determine:
                          1. Whether each described employees’ specific financial interests that
                             posed the conflict. We classified a description as specific if it
                             provided a clear understanding of the nature and identity of the
                             employee’s financial interest that posed the conflict. We classified a
                             description as not specific if it contained broad categories of types of
                             interests. Further, if SGEs’ waivers identified specific interests, we
                             determined whether the interests were also reflected in SGEs’
                             financial disclosure files to indicate whether granting officials based
                             the waivers on their reviews of the files.




                          68 To confirm that the supporting documentation we received from OPDIVs and

                          STAFFDIVs corresponded to the waivers in our sample, we compared copies of waivers
                          obtained from OGC to those from the OPDIVs and STAFFDIVs and ensured that the
                          waivers were the same.



    OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   16
I   N T   R O    D      U   C T      I     O      N




                             2. Whether each described the particular matters in which employees
                                were permitted to participate (i.e., those matters to which the
                                waiver applied). We classified a waiver as containing this
                                description if it set forth the employee’s official duties and the
                                matters being waived. We classified a waiver as not containing this
                                description if:
                                    •       the waiver contained only a broad statement that the employee
                                            may participate in general matters related to the conflict of
                                            interest and (1) did not state what the conflict was by name
                                            somewhere in the waiver and (2) did not state the committee’s
                                            duties (for SGEs’ waivers) or the employee’s official duties (for
                                            all other HHS employees’ waivers).
                                    •       the waiver contained contradictory information regarding the
                                            employee’s official duties and/or the matters being waived, either
                                            within the waiver or with other documents we received from the
                                            OPDIV or STAFFDIV.
                                    •       the granting official did not document in the waiver the decision
                                            to grant or deny the waiver. 69
                             3. Whether each was designated as a limited waiver and described the
                                particular matters in which an employee was prohibited from
                                participating. First, we designated a waiver as limited if it was
                                documented as limited (i.e., it contained language such as, “This is a
                                limited waiver …”) and/or contained any reference to matters in
                                which the employee must not participate. Then, we classified a
                                waiver as describing the limitations on the employee’s participation
                                if it provided any explanation of the types of matters on which the
                                employee must not participate. We classified a waiver as not
                                containing this description if:
                                    •       it contained only a broad statement that the employee must not
                                            participate in particular matters related to the conflict of
                                            interest and did not provide any detail about the matters in
                                            which the employee must not participate.
                                    •       it contained contradictory information regarding the particular
                                            matters in which the employee was prohibited from



                             69 HHS waivers contain checkboxes and signature lines for the granting officials to

                             document decisions to grant or deny waivers.



      OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   17
 I   N T    R O   D   U      C T           I    O       N


                                 participating, either within the waiver or with other documents
                                 we received from the OPDIV or STAFFDIV.
                  Employee signature and date. We reviewed the waivers to determine
                  whether they contained employees’ signatures and dates. For both
                  signed and unsigned waivers, we also determined whether they had a
                  line for the employees’ signatures. If waivers were not signed, we
                  determined whether there was any documentation to demonstrate that
                  the employees received and acknowledged their waivers. That is, we
                  reviewed emails to determine whether the employees had received the
                  final versions of their waivers or had acknowledged that they
                  understood the contents of their waivers. We also reviewed
                  documentation to determine whether OPDIVs or STAFFDIVs had orally
                  counseled the employees about their waivers.
                  Finally, for waivers that were not signed and/or dated, we determined
                  how many of them were not documented as recommended in at least one
                  of the three selected regulatory provisions and the Secretary’s
                  instructions. Employees receiving these waivers may not know they
                  have a waiver or understand the effect on their participation in official
                  duties. Of these waivers, we also determined how many were limited
                  waivers.
                  Limitations
                  We reviewed a stratified, random sample of 50 waivers granted in 2009.
                  We do not generalize our findings to all HHS waivers granted in 2009
                  because of the small sample size in each stratum.
                  Standards

                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors
                  General on Integrity and Efficiency.




OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   18
        F I N D I N G S



                   Fifty-six percent of the 50 HHS        Fifty-six percent (28 of 50) of the
  conflict-of-interest waivers in our review were         waivers from 2009 in our review
not documented as recommended in provisions               were not documented as
     of selected Governmentwide Federal ethics            recommended in at least 1 of 3
                                                          selected regulatory provisions and
    regulations and the Secretary’s instructions
                                                          the Secretary’s instructions. 70
                       These 28 waivers were granted to employees at 5 of the 9 OPDIVs or
                       STAFFDIVs in our review.
                       Fourteen percent (7 of 50) of the waivers did not describe employees’
                       specific interests that posed conflicts.71 In addition, 46 percent (23 of
                       50) of the waivers did not describe the particular matters in which
                       employees were permitted to participate. 72 Finally, 28 percent (14 of
                       50) were limited waivers that did not describe the particular matters in
                       which the employees were prohibited from participating. 73 Twenty-four
                       percent (12 of 50) of the waivers were not documented as recommended
                       in at least 2 of the 3 selected regulatory provisions and the Secretary’s
                       instructions, and 8 percent (4 of 50) were not documented as
                       recommended in any of these provisions or instructions. 74
                       Of the 28 waivers that were not documented as recommended in at least
                       1 of the 3 selected regulatory provisions and the Secretary’s
                       instructions, all but 1 were granted to SGEs on committees. Appendix
                       E provides the number and percentage of waivers from 2009 in our
                       review that were not documented as recommended in each of the three
                       selected regulatory provisions and the Secretary’s instructions for SGEs
                       and all other HHS employees.




                       70 Ten of these twenty-eight waivers were addenda to waivers. These addenda are separate
                       and distinct from the waivers they amend.
                       71 One of the seven waivers that did not describe employees’ specific interests was an
                       addendum.
                       72 Ten of the twenty-two waivers that did not describe the particular matters in which
                       employees were permitted to participate were addenda.
                       73 None of the fourteen limited waivers that did not describe prohibitions on employees’
                       participation were addenda.
                       74 One of the eight waivers that were not documented as recommended in at least two of the
                       three selected regulatory provisions and the Secretary’s instructions was an addendum.
                       None of the four waivers that were not documented as recommended in any of these
                       provisions or instructions were addenda.



     OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   19
F   I     N   D I    N G   S



                           Appendix F provides the number and percentage of the waivers from
                           2009 in our review that were not documented as recommended in one,
                           two, or three of the selected regulatory provisions and the Secretary’s
                           instructions. Appendix F also provides this information for limited
                           waivers (for which all three selected regulatory provisions and the
                           Secretary’s instructions apply) and nonlimited waivers (for which only
                           two selected regulatory provisions and the Secretary’s instructions
                           apply).
                           Fourteen percent of the 50 waivers in our review did not describe
                           employees’ specific financial interests that posed conflicts
                           Fourteen percent (7 of 50) of the waivers from 2009 we reviewed did not
                           describe employees’ specific interests that posed conflicts, and/or the
                           interests were not reflected in the employees’ financial disclosure files. 75
                           If waivers do not clearly specify the financial interests being waived, the
                           employees receiving the waivers (and/or other interested parties) may
                           have difficulty understanding which interests are waived and which are
                           not. Thus, the employees may inadvertently participate in matters in
                           which they are prohibited from participating and/or may inadvertently
                           not participate on matters in which their expertise may be valuable to
                           HHS’s programs.
                           All seven of the waivers that did not describe employees’ specific
                           interests were for SGEs on committees, and almost all (six of seven)
                           failed to describe a specific interest that posed a conflict. Instead, these
                           waivers contained general language covering broad categories of
                           interests. For example:
                                      [e]mployment with honoraria or other compensation from
                                      the health care industry, research institutions, state and
                                      local government, health care product manufacturers,
                                      insurance companies, hospitals, medical management
                                      delivery organizations, or other organizations …; and […]
                                      [e]xpert witness, litigation, or advocacy services . . . .



                           75 The Centers for Medicare & Medicaid Services (CMS) did not provide documentation
                           pertaining to one employee who was granted a waiver in 2009 because CMS had lost this
                           employee’s financial disclosure file. We obtained the waiver from OGC and determined that
                           it described a specific interest. We could not determine whether the interest was also
                           reflected in the employee’s financial disclosure file. To be conservative, we counted this
                           waiver as being documented as recommended in the selected regulatory provision of
                           describing the employee’s specific conflict of interest.



        OEI-04-10-00010    CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   20
F   I   N   D I   N G    S


                    The remaining waiver described a specific interest, but the description
                    contradicted information in the SGE’s financial disclosure file.
                    Specifically, the waiver indicated that the spouse’s employment posed a
                    conflict with the SGE’s official duties. However, the financial disclosure
                    file indicated that the SGE’s spouse was unemployed. Because this was
                    a limited waiver, this discrepancy may have prevented the SGE from
                    participating in official duties prohibited by the waiver when, in fact,
                    the interest may not have been held by or attributed to the SGE.
                    In contrast, most waivers clearly described the employee’s specific
                    interests that posed conflicts. For example:
                               Dr. [A] … holds stock in [Pharmaceutical Company B].
                               [Pharmaceutical Company B] is the parent company of
                               [Company C]. [Company C] is a competing firm.
                               [Company C] markets dermal fillers for facial wrinkles.
                               Dr. [A] owns X,XXX shares of [Pharmaceutical Company
                               B] valued at $XX,XXX. This amount exceeds the
                               exemption of $15,000 for stock holdings laid out in the
                               regulations issued by the Office of Government Ethics
                               (5 CFR 2640.202(a)). (The meeting is determined to be a
                               particular matter involving specific parties.)
                    Forty-six percent of the 50 waivers in our review did not describe the
                    particular matters in which employees were permitted to participate
                    For example, one waiver allows the employee to “participate in matters
                    of general applicability affecting [his] current financial interests and
                    any future interests of the types described above.” The financial
                    interests “described above” in the waiver contained general language
                    and covered broad categories of interests.
                    Another waiver mentioned the employee’s specific interests, among
                    other broad categories of interests, but the waiver did not describe the
                    employee’s committee or the employee’s official duties. Regarding the
                    particular matters on which the employee was permitted to participate,
                    the waiver stated that the employee is “granted a waiver for general
                    matters only” and did not refer to the specific or broad interests
                    contained in the waiver.
                    Of the 22 waivers that did not describe the particular matters in which
                    employees were permitted to participate, all but 1 were for SGEs on
                    committees.




OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   21
F   I   N   D I       N G    S




                            In contrast, 54 percent (27 of 50) of the waivers from 2009 we
                            reviewed clearly described the matters in which employees were
                            permitted to participate. For example, one employee was permitted
                            to participate in “[d]iscussion and recommendations on the safety and
                            efficacy of [X] THERAPY, sponsored by [Y] Technologies, Inc.
                            (formerly [Z] Technologies, Inc.) for moderate to severe nasolabial fold
                            wrinkles. This is determined to be a particular matter involving
                            specific parties.”
                            Twenty-eight percent of the 50 waivers in our review were limited waivers
                            that did not describe the particular matters in which employees were
                            prohibited from participating
                            However, only 31 of the 50 waivers in our sample were limited waivers
                            that should have contained this description; the remaining 19 permitted
                            employees to fully participate in official duties with no limitations.
                            Thus, 45 percent (14 of 31) of the limited waivers in our review did not
                            describe the particular matters in which HHS prohibited employees
                            from participating. All 14 of these waivers were for SGEs on
                            committees.
                            All of the limited waivers in our review contained broad statements that
                            the employees must not participate in specific matters related to their
                            conflicts of interest. However, 14 limited waivers did not provide any
                            detail about these matters for the employee receiving the waiver or
                            other stakeholders (e.g., the employee’s supervisor, the Designated
                            Federal Official assigned to the SGE’s committee, the public, OIG).
                            Thus, these waivers did not have enough specificity to provide a clear
                            understanding of the circumstances to which the waiver applied.
                            For example, one employee was granted a waiver “that would allow this
                            individual to participate in general matters that may directly affect [the
                            HHS employee’s] financial interests, but not uniquely affecting the
                            employee’s financial interest.”
                            In contrast, 55 percent (17 of 31) of limited waivers clearly described
                            the prohibitions on the employee’s participation. For example:
                                       [T]his waiver is intended to be limited in scope in that it
                                       does not apply to certain actions. You must have no
                                       involvement in any HHS grants, contracts, or other official
                                       actions that generate financial support to the [X], such as
                                       the procurement of [X] publications or approving
                                       expenditures for [X]-sponsored training for [HHS] staff.
                                       Likewise, you will have no involvement in HHS decisions

    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   22
 F   I   N   D I   N G   S




                                    to provide speakers or other support to [X] events. You
                                    also will recuse yourself from all charitable solicitation
                                    activities by [X] …



Although not required, 18 percent of the 50 HHS              While it is not a Federal
                                                             requirement for them to do so, HHS
       conflict-of-interest waivers in our review
                                                             OPDIVs and STAFFDIVs can
     included employees’ signatures and dates
                                                             document when employees receive
                         and acknowledge their waivers by having employees sign and date
                         them. Employees’ signatures and dates also document that they may be
                         held accountable for complying with the terms of their waivers. 76 On its
                         Intranet site, the OGC Ethics Division makes sample waivers available
                         to OPDIVs and STAFFDIVs. These samples have a signature line for
                         employees to confirm and acknowledge their waivers.
                         Eighteen percent (9 of 50) of the waivers from 2009 we reviewed
                         included HHS employees’ signatures and dates. These waivers were
                         granted to employees in six of the nine OPDIVs and STAFFDIVs in our
                         review.
                         In contrast, 82 percent (41 of 50) of the waivers we reviewed did not
                         include HHS employees’ signatures and/or dates. Seventy-six percent
                         (38 of 50) of the waivers had been neither signed nor dated by the HHS
                         employees receiving them. Thus, these 38 waivers are not documented
                         to indicate that the employees received them or were aware that the
                         waivers existed. Three waivers were signed but were not dated by the
                         HHS employees receiving them. The 41 waivers that were not signed
                         and/or dated were granted to employees at 5 of the 9 OPDIVs and
                         STAFFDIVs in our review.
                         For the 38 waivers that were not signed or dated, no other
                         documentation was submitted by the OPDIV or STAFFDIV to document
                         that these employees received and/or acknowledged their waivers. For
                         example, there were no documented emails to the 38 employees
                         notifying them that they had waivers, sending them the final versions of
                         their waivers, or asking them to confirm that they understood their
                         waivers. 77 There was also no documentation that the OPDIV or


                         76 Waivers are not considered to be in effect, however, until they are signed and dated by
                         the OPDIV or STAFFDIV granting official.
                         77 One email documented that an employee received a draft version of the waiver.




     OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   23
F   I   N   D I       N G    S




                            STAFFDIV orally counseled the 38 employees to ensure that they
                            understood their conflicts of interest or the limitations on their
                            participation in official duties, as described in their waivers.
                            Of the unsigned waivers, most (36 of 38) did not have a line for the
                            employee’s signature, as included in the OGC sample waivers. In
                            contrast, all 12 of the signed waivers had a line for the employee’s
                            signature. These 12 waivers were granted to employees at 8 of the
                            9 OPDIVs or STAFFDIVs in our review.
                            Of the 41 waivers that were not signed and/or dated, all but 2 were for
                            SGEs on committees. Appendix G provides the number and percentage
                            of waivers from 2009 in our review that did not include the employees’
                            signatures and/or dates, for SGEs and all other HHS employees.
                            Twenty-four of the forty-one waivers that were not signed and/or dated
                            were not documented as recommended in at least one of the three
                            selected regulatory provisions and the Secretary’s instructions. Thus,
                            the employees receiving these 24 waivers may not be aware of them.
                            Even if they are aware the waivers exist, the employees may not
                            understand their contents or their effect on the employees’ official
                            duties.
                            Twenty-four of the waivers that were not signed and/or dated were
                            limited waivers. These waivers were not documented to indicate that
                            the employees knew of the waivers or the limitations that the waivers
                            imposed on their official duties. Of these 24 unsigned limited waivers,
                            14 were not documented as recommended in at least 1 of the 3 selected
                            regulatory provisions and the Secretary’s instructions. These
                            14 waivers represent the greatest vulnerability. The employees
                            receiving these waivers may not be aware of them. If they are aware of
                            the waivers, the employees may not understand the limitations imposed
                            on their participation in official duties. If these employees are not
                            aware of their limited waivers or do not clearly understand them, the
                            employees may violate the criminal conflict-of-interest statute by
                            participating in prohibited matters.




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   24
   R E C O M M E N D A T I O N S




                  HHS employees, including SGEs serving as subject-matter experts on
                  committees, play an influential role in the Federal Government’s public
                  health policies. With the HHS OGC Ethics Division’s oversight and
                  guidance, an HHS OPDIV and STAFFDIV may grant
                  conflict-of-interest waivers to its employees. These waivers permit the
                  employees to act in an official Government capacity in which they would
                  otherwise be prohibited. OPDIVs and STAFFDIVs should document
                  waivers as recommended in selected regulatory provisions and the
                  Secretary’s instructions. In addition, HHS OPDIVs and STAFFDIVs
                  can document when employees receive and acknowledge the waivers by
                  having employees sign and date them or by otherwise documenting (e.g.,
                  via emails, documentation of oral counseling) that the employees
                  received and acknowledged their waivers. Employees’ signatures and
                  dates (or other documentation) also document that they are accountable
                  for complying with their waivers.
                  According to OGE, evaluating whether to grant a waiver is “one of the
                  more significant duties that ethics officials perform.” 78 If
                  conflict-of-interest waivers are not clearly documented to show that
                  employees understand their conflicts of interest and the matters, if any,
                  in which they are prohibited from participating, employees may
                  inadvertently violate the criminal conflict-of-interest statute. In
                  addition, if waivers do not clearly describe the particular matters in
                  which employees are permitted to participate, employees may
                  incorrectly refrain from providing their expertise when it would benefit
                  HHS’s programs. Further, if waivers are not documented so that the
                  public understands the employees’ conflicts of interest and their effect
                  on the employees’ official Government duties, the public may question
                  the integrity of the employees’ services to the Government.
                  Additionally, waivers that do not contain employees’ signatures and
                  dates may raise questions about whether the HHS OPDIVs or
                  STAFFDIVs presented the waivers to the employees and whether the
                  employees had an opportunity to review and understand them.


                  78 OGE Memorandum to Designated Agency Ethics Officials,     Guidance on Waivers Under
                  18 U.S.C. § 208(b), Authorizations Under 5 C.F.R. § 2635.502(d), and Waivers of
                  Requirements Under Agency Supplemental Regulations. DO-10-005, April 22, 2010, p. 5.
                  Accessed at http://www.usoge.gov/ethics_guidance/daeograms/dgr_files/2010/do10005.pdf on
                  September 23, 2010.



OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   25
R   E C     O   M   M       E   N D      A T           I    O       N      S



                                 In HHS, reports of alleged violations of the criminal conflict-of-interest
                                 statute must be reported to OIG. However, if waivers are not clearly
                                 documented and there is no evidence that employees received and
                                 acknowledged their waivers (e.g., via signatures and dates on waivers or
                                 other documentation), OIG has difficulty investigating, and the Federal
                                 Government would have difficulty holding employees accountable for
                                 complying with the criminal conflict-of-interest statute when alleged
                                 violations occur.
                                 We found that 56 percent of HHS employee conflict-of-interest waivers
                                 in our review were not documented as recommended in at least one of
                                 three selected regulatory provisions and the Secretary’s instructions,
                                 and 8 percent were not documented with any of these provisions or
                                 instructions. In addition, although not required, 18 percent of waivers
                                 we reviewed were signed and dated by HHS employees.
                                 Therefore, we recommend that HHS OGC:
                                 Require OPDIVs and STAFFDIVs to document conflict-of-interest waivers as
                                 recommended in Governmentwide Federal ethics regulations and the
                                 Secretary’s instructions
                                 OGC should work with the Office of the Secretary to reaffirm the
                                 Secretary’s January 2009 instructions and/or issue a new HHS policy
                                 requiring that all waivers be clearly documented to describe:
                                 • the employee’s specific financial interest that poses the conflict of
                                      interest;
                                 • the particular matter(s) in which the employee is permitted to
                                      participate; and
                                 • the particular matter(s), if any, in which the employee is prohibited
                                      from participating.
                                 As an alternative to documenting the waivers as recommended in the
                                 selected regulatory provisions and the Secretary’s instructions, other
                                 documents could be attached to or associated with the waivers to
                                 assist employees and other stakeholders in understanding them.




          OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   26
R   E C   O   M   M     E   N D         A T          I     O      N      S




                            Develop additional guidance and training to assist OPDIVs and STAFFDIVs
                            in documenting conflict-of-interest waivers as recommended in
                            Governmentwide Federal ethics regulations and the Secretary’s instructions
                            OGC should revise existing or create new guidance and training for
                            OPDIV and STAFFDIV ethics officials to ensure that waivers meet the
                            requirements and recommendations set forth in the criminal
                            conflict-of-interest statute, Governmentwide Federal ethics regulations,
                            and the Secretary’s instructions. This guidance and training should
                            educate ethics officials on how to draft waivers that are individualized
                            for each employee. In addition to including the required legal language,
                            some section of waivers should contain clear, plain (i.e., nonlegal)
                            language that employees and other stakeholders, including employees’
                            supervisors, can easily understand and apply to the employees’ work
                            circumstances. Each waiver should also include an individualized
                            interpretation of how it applies to the employees’ unique work
                            circumstances and should provide a clear understanding of the
                            circumstances to which the waiver applies or does not apply. Providing
                            clear and understandable guidance would also serve to prevent
                            inadvertent violations of the criminal conflict-of-interest statute.
                            Guidance should also include a detailed description of the applicable
                            Federal ethics regulations and should provide examples and sample
                            language to illustrate how waivers should be documented. For example,
                            the guidance could explain in more detail that a waiver should clearly
                            describe the following:
                            •       The employee’s specific interest and the potential for conflict. The waiver’s
                                    description should contain sufficient detail for the employee and the
                                    public to understand the nature and identity of the specific interest
                                    and how the interest may conflict with the employee’s official duties.
                            •       The particular matters in which the employee is permitted to participate. The
                                    waiver’s description should contain sufficient detail for the employee
                                    and the public to understand the scope of the employee’s permission to
                                    act in official duties related to the specified interest and the particular
                                    matters to which the waiver applies.
                            •       The particular matters in which the employee is prohibited from participating.
                                    When a limited waiver is required, its description should contain
                                    sufficient detail for the employee and the public to understand the
                                    particular matters that are not being waived and in which the
                                    employee is prohibited from participating. Further, the waiver should
                                    instruct the employee what to do if a matter related to the interest
                                    arises and the employee is unsure whether he or she can participate.

      OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   27
R   E C    O   M   M    E   N D     A T           I    O       N      S




                              OGC should also revise existing training or provide additional training to
                              ethics officials in OPDIVs and STAFFDIVs. The training should include
                              an overview of the process for developing and granting waivers to comply
                              with Governmentwide Federal ethics regulations and the Secretary’s
                              instructions. The training should also provide hypothetical examples of
                              HHS employees who have conflicts of interest and should educate ethics
                              officials on whether a waiver should be granted and, if so, how to clearly
                              document it.
                              Take action to revise the conflict-of-interest waivers in our review that were
                              not documented as recommended in Governmentwide Federal ethics
                              regulations and the Secretary’s instructions, if the waivers are still in effect
                              OGC should work with OPDIVs and STAFFDIVs to determine if any
                              waivers in our review are still in effect (i.e., if the employee is still
                              working for HHS, if the employee still has the same conflict of interest
                              and is working on the same official duties). If any of the waivers are
                              still in effect, OGC should assist OPDIVs and STAFFDIVs in their
                              revision of these waivers to document them according to the three
                              selected regulatory provisions and the Secretary’s instructions. OGC
                              should ensure that the OPDIVs and STAFFDIVs clarify waiver terms to
                              help employees understand and comply with the waivers.
                              OGC should focus first on the 14 limited waivers that were not
                              documented as recommended in at least 1 of the 3 selected regulatory
                              provisions and the Secretary’s instructions and were also not signed
                              and/or dated by the employee receiving the waiver. These limited
                              waivers represent the greatest vulnerability. If these employees are not
                              aware of their limited waivers or do not understand them, and if the
                              waivers are still in effect, the employees may inadvertently violate the
                              criminal conflict-of-interest statute by taking part in matters in which
                              they are prohibited from participating.
                              Expand the review of conflict-of-interest waivers for SGEs on committees
                              Consistent with the Secretary’s January 2009 memorandum, the OGC
                              Ethics Division must review waivers for SGEs on committees “where
                              practicable.” 79 Most HHS waivers granted in 2009 were for SGEs on
                              committees, and these SGEs’ waivers constitute most of the problems
                              we found.


                              79 Secretary, Memorandum to Deputy Secretary and Chiefs of Staff, Heads of Operating
                              and Staff Divisions, Delegation of Authority to Grant Conflict of Interest Waivers Under
                              18 U.S.C. §§ 203(d), 205(e), and 208(b). January 16, 2009, p. 2.



          OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   28
R   E C    O   M   M   E    N D     A T          I     O      N      S



                              Therefore, when OGC receives copies of HHS waivers that were granted
                              by OPDIVs and STAFFDIVs, it should thoroughly check a sample—if
                              not all—of the waivers from each OPDIV or STAFFDIV, particularly
                              focusing on waivers for SGEs, to ensure that the waivers are
                              documented as recommended in Federal ethics regulations and the
                              Secretary’s instructions. As part of this review, OGC should obtain the
                              employee’s financial disclosure file from the OPDIV or STAFFDIV to
                              fully understand the nature of the employee’s conflicts of interest. If
                              OGC identifies problems with waivers within an OPDIV or STAFFDIV,
                              it should ensure that the OPDIV or STAFFDIV clarifies with the
                              employees the matters in which they are permitted to participate and
                              any matters in which they are prohibited from taking part. OGC should
                              also work with OPDIV or STAFFDIV ethics officials to revise these
                              waivers and require that the ethics officials work more closely with
                              OGC before granting future waivers.
                              Require all employees to sign and date their conflict-of-interest waivers or
                              otherwise document that they received and acknowledged them
                              OGC should work with the Office of the Secretary to issue official HHS
                              policy that requires all employees to sign and date their waivers. OGC
                              should also require that waivers have a line for the employee’s
                              signature and date so that it is clear that the document must be signed
                              and dated, as demonstrated in the OGC Ethics Division’s sample
                              waivers. 80
                              As an alternative to signing and dating waivers, the policy could permit
                              other methods for documenting that employees received and
                              acknowledged their waivers, such as by retaining emails from
                              employees confirming that they understand their waivers and/or
                              documenting oral counseling provided to employees about their waivers.
                              While waivers are considered legally in effect once they are signed and
                              dated by the appropriate granting official, employees should sign and
                              date their waivers to (1) acknowledge the waivers, (2) document when
                              they understood any limitations on their participation in official
                              Government duties, and (3) confirm that the waivers accurately describe
                              their specific circumstances and conflicts of interest. Employees’


                              80 OGC, “Sample Waiver of Conflict of Interest for Special Government Employees (SGEs)

                              on Federal Advisory Committees [18 U.S.C. 208(b)(3)],” “Sample Waiver of Actual Conflict
                              for Officers or Directors [18 U.S.C. 208(b)(1)],” and “Sample Waiver of Actual Conflict of
                              Interest for Regular Employees [18 U.S.C. 208(b)(1)].”



          OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   29
R   E C   O   M   M    E    N D    A T          I     O      N      S




                              signatures and dates on waivers also demonstrate that OPDIVs or
                              STAFFDIVs presented the waivers to the employees and that the
                              employees had a chance to review and understand them. Requiring
                              employees to sign and date their waivers, or otherwise documenting
                              that they received and understood the waivers, may also assist in
                              ensuring that they are held accountable for complying with the waivers.
                              Waivers are not considered to be in effect until OPDIV or STAFFDIV
                              granting officials sign and date them. Therefore, employees’ signatures
                              and dates should be obtained on waivers as soon as possible after the
                              granting official signs and dates them.


                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              OGC and OGE provided written comments on a draft of this report. We
                              provide, below, a summary of these comments and our responses to
                              each. In addition, in response to OGC’s and OGE’s comments, we
                              conducted a second review of many of the waivers in our sample. OIG
                              continued to find that many waivers were not documented as
                              recommended in the selected regulatory provisions and the Secretary’s
                              instructions, and we updated our findings accordingly.
                              Comments from the HHS Office of the General Counsel. OGC stated that
                              the OIG report is incorrect and ignores the wide latitude that OGE
                              contemplated when making recommendations for waiver content. OGC
                              also disagreed with the finding that the waivers in our sample were not
                              documented as recommended in OGE regulations and stated that our
                              contrary conclusion was based on several fundamental errors. Further,
                              OGC stated that it reviewed each of the 50 waivers in our sample and
                              determined that none of the waivers failed to meet legal requirements
                              and that the waivers contained descriptions satisfying the OGE
                              recommendations and were consistent with the conditions stated in the
                              Secretary’s instructions.
                              OGC concurred with two of the five recommendations in the draft
                              report. Specifically, OGC concurred with the recommendation that it
                              should develop additional guidance and training to assist OPDIVs and
                              STAFFDIVs in documenting waivers as recommended in
                              Governmentwide Federal ethics regulations. OGC reiterated that it
                              disagreed with the draft report’s interpretation of waiver documentation
                              recommendations in Federal ethics regulations, but OGC stated that
                              guidance and training based on the correct interpretation will benefit

          OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   30
R   E C    O   M    M   E   N D      A T          I     O      N      S




                              the HHS waiver process. OGC also concurred that it should expand the
                              review of waivers for SGEs on committees, while noting that it has
                              already revised its review and oversight process for waivers in a manner
                              that is more expansive than the actions we recommend.
                              OGC did not concur with three recommendations: that it require
                              OPDIVs and STAFFDIVs to document waivers as recommended in
                              Governmentwide regulations; that it take action to revise the conflict-of-
                              interest waivers in our review that were not documented as
                              recommended in these regulations; and that it require all employees to
                              sign and date, or similarly document, their waivers. However, OGC
                              acknowledged that additional detail may be helpful for some of the
                              waivers in our sample and stated that it has been working with one of
                              the OPDIVs to revise the model waivers that it provides to ethics
                              officials within the OPDIV.
                              OIG disagrees with OGC’s statements that our report contains
                              fundamental errors and that we ignored the wide latitude in OGE’s
                              recommendations for waiver content. OGE affords agencies wide
                              latitude to craft waivers that are both legally sufficient and meet
                              agencies’ policy objectives, such as the Secretary’s instructions.
                              We believe that documenting waivers in a manner that reflects OGE’s
                              recommendations and the Secretary’s instructions is important to
                              preserve the integrity of HHS’s programs and policies by ensuring that
                              employees and other stakeholders are aware of employees’ conflicts of
                              interest and act accordingly when those interests arise in the course of
                              the employees’ official Government duties.
                              Given the importance of accountability, OIG continues to emphasize its
                              recommendation that OGC require employees to sign and date, or
                              similarly document, their waivers. OGC’s concern about a “one size fits
                              all” approach is accommodated by our recognition that this can be
                              accomplished by other means (i.e., similarly documenting waivers) to
                              ensure employee accountability. Further, OIG maintains that unsigned
                              limited waivers that are not documented as recommended in the
                              selected regulatory provisions and the Secretary’s instructions represent
                              the greatest vulnerability. The employees receiving these waivers may
                              not be aware of them or the limitations on the employees’ participation.
                              If these employees are not aware of their limited waivers or do not
                              clearly understand them, the employees may violate the criminal
                              conflict-of-interest statute by participating in prohibited matters.



          OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   31
R   E C    O   M   M   E    N D           A T          I     O      N      S



                           Comments from the Office of Government Ethics. OGE also provided
                           comments on a draft of this report but was not asked to indicate
                           whether it concurred with the report’s recommendations. However,
                           OGE did state that, as a general matter, the recommendations in the
                           report support good documentation practices that it strongly
                           recommends. OGE also expressed concern that the draft report did not
                           adequately recognize that, by regulation and policy, OGE has afforded
                           agencies certain latitude to create waivers that are both legally
                           sufficient and meet agencies’ policy objectives. OGE emphasized that
                           waivers do not need to be described with any particular degree of
                           specificity to be legally sufficient and that the agency issuing the waiver
                           can describe the employee’s duties in a general way or describe a class
                           of matters. Further, OGE indicated that the draft report did not
                           account for the location or availability of information in places other
                           than the actual waiver.
                           OGE also expressed concern regarding our finding of insufficient detail
                           in limited waivers and indicated that similar language describing
                           limitations has been used in waivers for decades, including in OGE’s
                           own waivers. OGE expressed concern that our report casts doubt on the
                           clarity and enforceability of similar limiting language that has long
                           been used in the Executive Branch.
                           Finally, OGE acknowledged that neither OGE regulations nor guidance
                           require employees to sign and acknowledge their waivers. OGE
                           indicated that agencies have various means, apart from the actual
                           waiver, to apprise employees of the scope of their permitted duties and
                           any recusal obligations.
                           We made revisions to the report to clearly underscore that neither OGE
                           regulations nor OGE guidance provides a clear definition of the degree
                           of specificity required in waivers and that waivers may be legally
                           sufficient without this information. However, we note that the
                           Secretary’s 2009 instructions provide additional clarity regarding the
                           contents of HHS’s waivers, including limited waivers, and we have
                           revised the report accordingly. We maintain that—regardless of the
                           language used in HHS waivers prior to January 2009—for waivers to be
                           documented consistently with the Secretary’s January 2009
                           instructions, some section of the waivers should contain clear language
                           so that employees and other stakeholders (e.g., employees’ supervisors,
                           the public, OIG) can understand the waivers and so that employees may
                           be held accountable for complying with them.


     OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   32
R   E C   O   M   M     E   N D         A T          I     O      N      S




                            We made other technical and clarifying changes to the report based on
                            OGC’s and OGE’s comments. For example, we clarified that (1) we did
                            not determine the legal sufficiency of the waivers, (2) we used the
                            Secretary’s instructions when reviewing the waivers, and (3) we
                            considered other documents provided by OPDIVs and STAFFDIVs when
                            determining whether employees received and acknowledged their
                            waivers. For the full text of OGC’s and OGE’s comments, see
                            Appendix H. Because OGC included OGE’s comments as an attachment
                            to its comments, we do not provide OGE’s comments separately.




      OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   33
    A P P E N D I X ~ A



            Table A-1: Number of Waivers by Department of Health and Human Services
            Operating Division or Staff Division and Type of Employee, From 2007 to 2009
            Operating Division or Staff Division                                                             2007             2008         2009
            Agency for Healthcare Research and Quality                                               8                  6            6
              Waivers for special Government employees (SGEs)
              on Federal advisory committees (committees)                                                          8            6            6
              Waivers for all other Department of Health and
              Human Services (HHS) employees                                                                       0            0            0
            Assistant Secretary for Preparedness and Response                                        3                  3            0
              Waivers for SGEs on committees                                                                       3            3            0
              Waivers for all other HHS employees                                                                  0            0            0
            Assistant Secretary for Planning and Evaluation                                          0                  0            1
              Waivers for SGEs on committees                                                                       0            0            0
              Waivers for all other HHS employees                                                                  0            0            1
            Centers for Disease Control and Prevention                                               15                 29           12
              Waivers for SGEs on committees                                                                      13            28           12
              Waivers for all other HHS employees                                                                  2             1            0
            Centers for Medicare & Medicaid Services                                                 1                  4            1
              Waivers for SGEs on committees                                                                       1            4            0
              Waivers for all other HHS employees                                                                  0            0            1
            Food and Drug Administration                                                             95                 37           24
              Waivers for SGEs on committees                                                                      89            33           23
              Waivers for all other HHS employees                                                                  6             4            1
            Health Resources and Services Administration                                             10                 47           6
              Waivers for SGEs on committees                                                                      10            47           6
              Waivers for all other HHS employees                                                                  0             0           0
            Indian Health Service                                                                    0                  0            1
              Waivers for SGEs on committees                                                                       0            0            0
              Waivers for all other HHS employees                                                                  0            0            1
            National Institutes of Health                                                            301                255          290
              Waivers for SGEs on committees                                                                     287           237          287
              Waivers for all other HHS employees                                                                 14            18            3
            Office of the General Counsel                                                            0                  0            1
              Waivers for SGEs on committees                                                                       0            0            0
              Waivers for all other HHS employees                                                                  0            0            1
            Office of Public Health Services                                                         13                 3            0
              Waivers for SGEs on committees                                                                      13            3            0
              Waivers for all other HHS employees                                                                  0            0            0
            President’s Council on Bioethics                                                         4                  3            0
              Waivers for SGEs on committees                                                                       4            0            0
              Waivers for all other HHS employees                                                                  0            3            0
                 Total                                                                               450                387          342
                      Waivers for SGEs on Committees                                                             428           361          334
                      Waivers for All Other HHS Employees                                                         22            26            8
            Source: Office of Inspector General analysis of Office of the General Counsel data, 2009.




OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009                         34
    A P P E N D I X ~ B


                  5 CFR Pt. 2640 – Interpretation, Exemptions, and Waiver Guidance
                  Concerning 18 U.S.C. 208 (Acts Affecting a Personal Financial Interest)

                  Subpart C—Individual Waivers
                  5 CFR § 2640.301 – Waivers issued pursuant to 18 U.S.C. 208(b)(1)
                  (NOTE: Provisions relevant to the analysis in this report are shown in
                  bold.)
                  (a) Requirements for issuing an individual waiver under 18 U.S.C.
                      208(b)(1). Pursuant to 18 U.S.C. 208(b)(1), an agency may
                      determine in an individual case that a disqualifying financial
                      interest in a particular matter or matters is not so substantial as to
                      be deemed likely to affect the integrity of the employee’s services to
                      the Government. Upon making that determination, the agency may
                      then waive the employee’s disqualification notwithstanding the
                      financial interest, and permit the employee to participate in the
                      particular matter. Waivers issued pursuant to section 208(b)(1)
                      should comply with the following requirements:
                          (1) The disqualifying financial interest, and the nature and
                          circumstances of the particular matter or matters, must be fully
                          disclosed to the Government official responsible for appointing the
                          employee to his position (or other Government official to whom
                          authority to issue such a waiver for the employee has been
                          delegated);
                          (2) The waiver must be issued in writing by the Government official
                          responsible for appointing the employee to his position (or other
                          Government official to whom the authority to issue such a waiver for
                          the employee has been delegated);
                          (3) The waiver should describe the disqualifying financial interest,
                          the particular matter or matters to which it applies, the employee’s
                          role in the matter or matters, and any limitations on the employee’s
                          ability to act in such matters;
                          (4) The waiver shall be based on a determination that the
                          disqualifying financial interest is not so substantial as to be deemed
                          likely to affect the integrity of the employee’s services to the
                          Government. Statements concerning the employee’s good character
                          are not material to, nor the basis for making, such decision;
                          (5) The waiver must be issued prior to the employee taking any
                          action in the matter or matters; and

OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   35
A   P P   E   N   D I   X     ~      B



                                (6) The waiver must apply to both present and future financial
                                interests, provided the interests are described with sufficient
                                specificity.
                                Note to paragraph (a): The disqualifying financial interest, the
                                particular matter or matters to which the waiver applies, and the
                                employee’s role in such matters do not need to be described with any
                                particular degree of specificity. For example, if a waiver were to
                                apply to all matters which an employee would undertake as part of
                                his official duties, the waiver document would not have to
                                enumerate those duties. The information contained in the waiver,
                                however, should provide a clear understanding of the nature and
                                identity of the disqualifying financial interest, the matters to which
                                the waiver will apply, and the employee’s role in such matters.
                        5 CFR § 2640.302 – Waivers issued pursuant to 18 U.S.C. 208(b)(3)
                        (NOTE: Provisions relevant to the analysis in this report are shown in
                        bold.)
                        (a) Requirements for issuing an individual waiver under 18 U.S.C.
                            208(b)(3). Pursuant to 18 U.S.C. 208(b)(3), an agency may
                            determine in an individual case that the prohibition of 18 U.S.C.
                            208(a) should not apply to a special Government employee serving
                            on, or an individual being considered for, appointment to an
                            advisory committee established under the Federal Advisory
                            Committee Act, notwithstanding the fact that the individual has one
                            or more financial interests that would be affected by the activities of
                            the advisory committee. The agency’s determination must be based
                            on a certification that the need for the employee’s services outweighs
                            the potential for a conflict of interest created by the financial
                            interest involved. Waivers issued pursuant to 18 U.S.C. 208(b)(3)
                            should comply with the following requirements:
                                (1) The advisory committee upon which the individual is serving, or
                                will serve, is an advisory committee within the meaning of the
                                Federal Advisory Committee Act, 5 U.S.C. app.;
                                (2) The waiver must be issued in writing by the Government official
                                responsible for the individual’s appointment (or the Government
                                official to which authority to issue such waivers has been delegated)
                                after the official reviews the financial disclosure report filed by the
                                individual pursuant to the Ethics in Government Act in 1978;



    OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   36
A    P P    E   N     D I      X      ~     B


                                    (3) The waiver must include a certification that the need for the
                                    individual’s services on the advisory committee outweighs the
                                    potential for a conflict of interest;
                                    (4) The facts upon which the certification is based should be fully
                                    described in the waiver, including the nature of the financial
                                    interest, and the particular matter or matters to which the waiver
                                    applies;
                                    (5) The waiver should describe any limitations on the individual’s
                                    ability to act in the matter or matters;
                                    (6) The waiver must be issued prior to the individual taking any
                                    action in the matter or matters; and
                                    (7) The waiver may apply to both present and future financial
                                    interests of the individual, provided the interests are described with
                                    sufficient specificity.
                            5 CFR § 2640.303 – Consultation and notification regarding waivers
                            When practicable, an official is required to consult formally or
                            informally with the Office of Government Ethics prior to granting a
                            waiver referred to in §§ 2640.301 and 2640.302. A copy of each such
                            waiver is to be forwarded to the Director of the Office of Government
                            Ethics.
                            5 CFR § 2640.304 – Public availability of agency waivers
                            (a) Availability. A copy of an agency waiver issued pursuant to
                                18 U.S.C. 208 (b)(1) or (b)(3) shall be made available upon request to
                                the public by the issuing agency. Public release of waivers shall be
                                in accordance with the procedures set forth in section 105 of the
                                Ethics in Government Act of 1978, as amended. Those procedures
                                are described in 5 CFR 2634.603.
                            (b) Limitations on availability. In making a waiver issued pursuant to
                                18 U.S.C. 208 (b)(1) or (b)(3) publicly available, an agency:
                                    (1) May withhold from public disclosure any information contained
                                    in the waiver that would be exempt from disclosure pursuant to
                                    5 U.S.C. 552; and
                                    (2) Shall withhold from public disclosure information in a waiver
                                    issued pursuant to 18 U.S.C. 208(b)(3) concerning an individual's
                                    financial interest which is more extensive than that required to be
                                    disclosed by the individual in his financial disclosure report under


    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   37
A   P P    E   N      D I    X      ~     B


                                    the Ethics in Government Act of 1978, as amended, or which is
                                    otherwise subject to a prohibition on public disclosure under law.




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   38
    A P P E N D I X ~                                 C




    OEI-04-10-00010   CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   39
A   P P   E   N   D I   X    ~      C




      OEI-04-10-00010       CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   40
A   P P   E   N   D I   X     ~      C




     OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   41
A   P P E N    D I       X ~ C




       OEI-04-10-00010      CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   42
           A P P E N D I X ~ D




Table D-1: Number of Waivers Granted by the Department of Health and Human Services in 2009
to Special Government Employees on Federal Advisory Committees at the National Institutes of
Health, by Institute or Center
                                                                       Waivers    Waivers in
National Institutes of Health Institute or Center
                                                                Granted in 2009       Sample
Office of the Director                                                                                                           56     3
National Cancer Institute                                                                                                        42     2
National Heart, Lung, and Blood Institute                                                                                        21     2
National Institute of Environmental Health Sciences                                                                              19     2
National Institute of Child Health and Human Development                                                                         16     1
National Institute of Allergy and Infectious Diseases                                                                             15    2
National Institute of Mental Health                                                                                              14     1
National Center for Research Resources                                                                                           11     1
National Human Genome Research Institute                                                                                         10     1
National Institute of Arthritis and Musculoskeletal and Skin Diseases                                                            10     1
Clinical Center                                                                                                                    9    1
National Institute on Drug Abuse                                                                                                   9    1
National Library of Medicine                                                                                                       9    1
National Institute of General Medical Sciences                                                                                     7    1
National Institute of Neurological Disorders and Stroke                                                                            7    1
National Institute of Deafness and Other Communication Disorders                                                                   6    1
National Institute of Diabetes and Digestive and Kidney Diseases                                                                   6    1
National Institute on Aging                                                                                                        5    1
National Center for Complementary and Alternative Medicine                                                                         5    1
National Center on Minority Health & Health Disparities                                                                            3    1
National Institute of Nursing Research                                                                                             3    1
Center for Scientific Review                                                                                                       2    1
Fogarty International Center                                                                                                       1    1
National Eye Institute                                                                                                             1    1
National Institute on Alcohol Abuse and Alcoholism                                                                                 0   0
National Institute of Biomedical Imaging and Bioengineering                                                                        0    0
National Institute of Dental and Craniofacial Research                                                                             0    0
  Total                                                                                                                          287   30
Source: Office of Inspector General review of Department of Health and Human Services data, 2010.



        OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009         43
                  A P P E N D I X ~ E



Table E-1: Number and Percentage of Waivers From 2009 in Our Review Not Documented as
Recommended in Provisions of Selected Governmentwide Federal Ethics Regulations and the Instructions
of the Secretary of Health and Human Services, for Special Government Employees and All Other
Department of Health and Human Services Employees
Recommended                 Special Government        All Other Department of
                                                                                   All Employees
Provisions and           Employees  on Committees        Health and Human
                                                                                        (n=50)*
Instructions Not                  (n=42)*           Services Employees (n=8)*
Documented in
                            Number Percentage**       Number      Percentage**  Number Percentage**
Waiver

Description of
employees’ specific                          7                           17%                                0                     0%          7   14%
conflicts of interest

Description of
particular matters in
which employees were                       22                            52%                                1                    13%         23   46%
permitted to participate

Description of
particular matters in
which employees were
                                           14                            33%                                0                     0%         14   28%
prohibited from
participating

  Total                                    27                            64%                                1                    13%         28   56%
* Column sums exceed totals because some waivers were not documented as recommended in more than one selected regulatory provision
and the instructions of the Secretary of Health and Human Services.
** Percentages are calculated using the total number of waivers for each type of employee. However, only limited waivers must describe
particular matters in which employees were prohibited from participating. There were 31 limited waivers in our sample: 26 limited waivers for
special Government employees and 5 limited waivers for all other HHS employees.

Source: Office of Inspector General review of Department of Health and Human Services data, 2010.




                  OEI-04-10-00010          CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009        44
        A P P E N D I X ~ F




Table F-1: Number and Percentage of Waivers From 2009 in Our Review Not Documented as
Recommended in One, Two, or Three Provisions of Selected Governmentwide Federal Ethics
Regulations and the Instructions of the Secretary of Health and Human Services, for Limited and
Nonlimited Waivers
Number of
Recommended           Limited Waivers           Nonlimited Waivers            All Waivers
Provisions and
Instructions Not
Documented in        Number Percentage          Number      Percentage   Number       Percentage
Waiver

                                       7                       14%                                 9              18%              16   32%
One

Two                                    7                       14%                                 1                   2%           8   16%


Three                                  4                         8%                        N/A*                   N/A*              4    8%


None                                 13                        26%                                 9              18%              22   44%

  Total                              31                        62%                                19              38%              50   100%
* Nonlimited waivers do not describe the particular matters in which employees are prohibited from participating.

Source: Office of Inspector General review of Department of Health and Human Services data, 2010.




        OEI-04-10-00010          CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009          45
           AA PP P P E E N N D DI        IX X~ ~G G




Table G-1: Number and Percentage of Waivers From 2009 in Our Review That Did Not Include
Employees’ Signature and/or Date, for Special Government Employees and All Other Department of
Health and Human Services Employees
                          Special Government        All Other Department of
                                                                                  All Employees
                             Employees on              Health and Human
Information Not                                                                        (n=50)
                           Committees (n=42)       Services Employees (n=8)
Documented in Waiver
                        Number       Percentage    Number       Percentage* Number       Percentage

Signature and date                           37                          88%                                1                   13%    38    76%

Date only                                      2                            5%                              1                   13%     3        6%

  Total                                      39                          93%                                2                   25%    41    82%
* Column sum exceeds total because of rounding.

Source: Office of Inspector General review of Department of Health and Human Services data, 2010.




              OEI-04-10-00010        CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009        46
A P PEN D                       x        H

AGENCY COMMENTS



               DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of the Secretary



                                                                                             Office of the General Counsel
                                                                                             Washington, D.C. 20201




                                                                    MAY 1 0 2011
      MEMORANDUM

      TO;            Stuart Wright
                     Deputy Inspector General for Evaluation ~nd ~ections

      FROM:          David S. Cade               /S/
                     Deputy General C4~.

      SUBJECT:       OIG Draft Report: Conflict-a/-Interest Waivers Granted to HHS
                     Employees in 2009, OEI-04-10-00010 (March 2011)

      The Office of the General Counsel (OGC) appreciates the opportunity to review and comment
      on the Office of the Inspector General (OIG) draft report prepared by the Office of Evaluation
      and Inspections (OEI): Canflict-o/-Interest Waivers Granted to HHS Employees in 2009,
      OEI-04-J 0-00010 (March 2011) (Draft Report). Evaluating possible waivers under the conflict
      ofillterest statute, 18 U.S.C. § 208, is one of the more significant duties that ethics officials
      perform to ensure public confidence in the Government's programs and operations. Both the
      individual employee's interests and those of the Government are best served when this process is
      carried out in a careful and consistent manner. OGC shares OEI's goal of ensuring that conflict
      of interest waivers issued by Departmental components are both legally effective and
      appropriately documented in order to support the mission ofthe Department ofRealth and
      Ruman Services (RRS).

      OEI review of administrative processes often provides useful insights and recommendations.
      OEI, in this instance, has undertaken to evaluate legal instruments to ascertain whether the
      documents contain descriptive elements which OEI characterizes as "recommended in provisions
      of selected Governmentwide Federal ethics regulations." Draft Report at 1. As OEI crosses into
      an area ofOGC's particular expertise, we do find its legal evaluation wanting. Although we
      appreciate the time and effort that went into preparing the Draft Report and acknowledge the
      corrections OEI has already made in response to our informal comments, the report continues to
      be incorrect.

      The Draft Report claims that all conflict of interest waivers should contain very detailed
      descriptions of: (1) the employee's specific financial interest; (2) the particular matter(s) in which
      the employee is permittcd to participate; and (3) any li.mitations regarding the particular matter(s)
      in which the employee remains prohibited from panicipating. Id. The Draft Report then rejects,
      as insufficient documentation, textual references to broad categories of interests, generalized
      descriptions of an employee's duties that may affect those interests, and utilization oflegal terms
      of att that delineate classes of matters to which the waiver would apply. Draft Report at 16-19.




OEI-04-1 0-0001 0       CONFLICT-OF-INTEREST WAIVERS GRANTED TO      HHS   EMPLOYEES IN   2009                               47
A   P P     E   N     D I     X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   48
A   P P   E   N   D I   X     ~     H




    OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   49
A   P P    E   N      D I    X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   50
A   P P   E   N   D I   X     ~      H




    OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   51
A   P P     E   N     D I     X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   52
A   P P    E   N      D I   X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   53
A   P P    E   N      D I   X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   54
A   P P   E   N   D I   X     ~      H




    OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   55
A P PEN             D           x            H




             00$ Response to: "010 Draft Report: Corif/IC!-oj.lnteretJt
             WQ/vers Granted to HHS EmploysfIII in '2009, OEI·04-10-000JO"
             Pag,e 14

             where a conflicting entity is a party" but may work on broader polley matters affecting the entity 

             as part ofa class or group." DO·07·oo6, sec. IV.l. Moreover, where a waiwris so limited, it is 

             natural to expect less specific detail, In some cases anyway,'than if the agency were permitting 

             the employee actually to participate in particular matters involving specifiC parties that might 

             pose a more acute conflict of interest) it bas long been understood that the desirability for 

             specificity can vary depending on the magnitJIde and seriousness ofthe conflict? 


                       In conclusion., it is critical to distinguish the legal requirements for a waiver under 18
             U.S.C, 208 from practices that may be desirable because thl<Y enhance clarity and transparenoy
             but which do not impact the,legal Bufficiency of the underlying waiver. Great care and precision
             must be taken to not confuse the two beoause to dO so could create the erroneous impression that
             agency and individual employee actions have violated the law.

                    rfOGE may be of further assistance in this matter, or Ifyou have any questions. please 

             contact me at 202-482·9292. 



                                                                                   SJl;lemly,
                                                                                     /S/
                                                                                   'DonW.Fox
                                                                                    General Counsel and
                                                                                    Principal Deputy Director




             7 rn faoI, the Office of Legal Counse~ Department Q! Justice, speoifi\llllly advised a CIIJlljlOIlent ofHHS to this effi:ct
              CClncemJng certain advI$QI}' committee memllOl'8; over 30 yean OSQ: "Although by its literal terms §208(b)(1)
              would appear to Tequlre tho IIPPolntlng offiolal to Issue a sepaxato exemption for eaoh partiC1.llat matter 11'1 which a
              given f\nancllllinterost may arise, we have CII)lSlstwltly takon tho position that a blanket exemptlon CIIvcrlnga Biven
              f\nancia,llntwes~ may be issued in appropriate cltcumstanoe/l If the appointing Qmeial CIInelu&s that the finanolal
              in1ere8t Will not bR, i!l'! suljatantliIJlIS!2 !Iff!!;t 11» i_db! ~the !l)llI1loyee's serylcealb whiteyAI' COJ1!roIt it !Irises." 2
              Op. 0.1;.0. lSI, 156 n.S (1978)(omphasls added). Noto tbat this advice was renilered explicitly conceming HIlS
              advisory committee members participating In partieular matters Qf general applicability wiIb mpect which tho
              members render "'advice Qf a general naturo from which 1IQ preference QT ac:lvantap Qvet otheJS ml!\ht be gained by
            , any partloulaqleJSon or organization,'" Jd at 156 (quoting fomIer Federal Pct8fltmel Manual).                               '




 OEI·04-10·00010             CONFLICT·OF·INTEREST WAIVERS GRANTED TO                          HHS    EMPLOYEES IN        2009                       56
A   P P    E   N      D I   X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   57
A   P P   E   N   D I   X     ~     H




    OEI-04-10-00010     CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   58
A   P P    E   N      D I    X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   59
A   P P     E   N     D I    X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   60
A   P PEN             D     x        H




            The Honorable Daniel Levinson
            Page 4



            for oversight and implementing regulations in this area, has detenrtined is either legalJy required
            or a best practice. OGE's regUlations or policy guidance do not require employees to sign and
            acknowledge their waivers and do not suggest that this practice would add value to the process.
            As described above, ag(rllcies have various means, apart from the actual waiver certification, to
            apprise employees of the scope of their permitted duties and any continuing reeusal obligations.
            In some cases, for instance, OGE could envision that a pro fonna acknowledgment signature
            might have less value than oral counseling, particularly where the employee has questions or
            doubts about the contents and meaning ofthe waiver.

                    OGE has long provided expert advice to inspectors general in a wide variety of ethics­
            related matters. If you have any questions about waivers under 18 U.S.C. § 208 or how to
            interpret the applicable regulations or policy in this area, please contact me or my General
            Counsel, Don Fox, at 202-482-9292.

                                                                 SincBfely,

                                                                    /S/
                                                                 Robert I. Cusick
                                                                 Director

            Enclosure: (Letter from Don W. Fox, General Counsel, OGE,
                       to Edgar M. Swindell, DAEO, HHS, March 9,2011)

            cc: EdgarM. Swindell, Designated Agency Ethics Official




    OEI-04-10-00010        CONFLICT-OF-INTEREST WAIVERS GRANTED TO        HHS EMPLOYEES IN 2009                   61
A   P P    E   N      D I   X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   62
A   P P     E   N     D I     X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   63
A   P P     E   N     D I     X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   64
A   P P    E   N      D I   X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   65
A   P P    E   N      D I   X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   66
A   P P    E   N      D I    X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   67
A   P P    E   N      D I    X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   68
A    P P    E   N     D I      X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   69
A    P P     E   N    D I      X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   70
A   P P     E   N     D I      X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   71
A   P P    E   N      D I    X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   72
A    P P     E   N    D I       X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   73
A    P P     E   N    D I       X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   74
A   P P     E   N     D I     X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   75
A   P P     E   N     D I     X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   76
A   P P    E   N      D I    X      ~      H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   77
A   P P     E   N     D I      X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   78
A    P P    E   N     D I      X      ~     H




    OEI-04-10-00010         CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   79
   A   P P        E   N    D I          X      ~     H




OEI-04-10-00010           CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   80
A   PA PC EK N N D O I    W
                           X ~L GE D G M E N T S



                    This report was prepared under the direction of Dwayne Grant,
                    Regional Inspector General for Evaluation and Inspections in the
                    Atlanta regional office, and Jaime Durley, Deputy Regional Inspector
                    General.
                    Principal Office of Evaluation and Inspections staff from the Atlanta
                    regional office who contributed to the report include Starr Daniell and
                    Michelle Verges. Central office staff who contributed include Kevin
                    Farber, Melinda Golub, Pamela Langer, and Talisha Searcy.




 OEI-04-10-00010    CO N F L I C T- OF - I N T E R E S T WA IV E R S G R A N T E D   TO   HHS EMPLOYEES   IN   2009   81
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
